<html>
<title> - [H.A.S.C. No. 114-17] U.S. POLICY, STRATEGY, AND POSTURE IN AFGHANISTAN: POST-2014 TRANSITION, RISKS, AND LESSONS LEARNED</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 114-17]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                   U.S. POLICY, STRATEGY, AND POSTURE
    IN AFGHANISTAN: POST-2014 TRANSITION, RISKS, AND LESSONS LEARNED

                               __________

                              HEARING HELD
                             MARCH 4, 2015

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                    


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-219                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
STEVEN M. PALAZZO, Mississippi       DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                         Michael Tehrani, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Campbell, GEN John F., USA, Commander of Operation Resolute 
  Support and U.S. Forces-Afghanistan............................     3

                                APPENDIX

Prepared Statements:

    Campbell, GEN John F.........................................    51

Documents Submitted for the Record:

    Charts and photographs displayed by GEN Campbell.............    81

Witness Responses to Questions Asked During the Hearing:

    [Responses provided were classified and retained in committee 
      files.]

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................    90
    Mr. Shuster..................................................    89
    Mr. Smith....................................................    89
    Ms. Tsongas..................................................    89
    
    
    
 
                        [H.A.S.C. No. 114-17]
    
                 U.S. POLICY, STRATEGY, AND POSTURE IN
               AFGHANISTAN: POST-2014 TRANSITION, RISKS,
                          AND LESSONS LEARNED

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 4, 2015.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order. Today the House 
Armed Services Committee meets to discuss the ongoing conflict 
in Afghanistan.
    We have been engaged in military action in Afghanistan for 
14 years. The predictions that this would be a long conflict 
have proven accurate.
    While there have been setbacks in recent years, there is 
also cause for cautious optimism. The United States and its 
allies, especially the Afghan forces, have made some meaningful 
gains.
    A counterinsurgency is one of the toughest types of war a 
democracy can fight. While this conflict has been a difficult 
one, it is not impossible. And both our future security and the 
future of the Afghan people depend on our success.
    The people in Afghanistan currently have, in my opinion, 
the best opportunity for a stable, relatively peaceful country 
that they have had in over four decades. Together with the 
cooperation of our allies and the Kabul government, we have 
built a 352,000-strong Afghan National Security Force [ANSF]. 
Although building a capable security force takes time, the ANSF 
is growing in ability and capability.
    But now is a critical moment. We must not repeat the 
mistakes of Iraq, where an early withdrawal that was based, in 
my view, on political rather than strategic calculations 
contributed to the rise of the Islamic State of Iraq and the 
Levant [ISIL], where an enemy once devastated has reconstituted 
itself to pose an even bigger, more deadly threat.
    Although the operational outlook is very different than 
Iraq, Afghanistan could also become unstable should the United 
States end the mission before the Afghan forces are capable of 
providing their own security. We should not have, in my view, a 
time-based withdrawal from Afghanistan, and I hope that the 
President reconsiders his--the approach he has previously 
announced and listens to the request of President Ghani.
    Today I hope to hear answers on some important questions, 
such as: What objectives must be met to secure our gains? What 
are the key tactical and operational challenges facing the 
ANSF? And, is our presence and the allied presence in 
Afghanistan adequate to meet those challenges?
    Finally, as Congress considers the President's counter-ISIL 
AUMF [authorization for use of military force] request, some of 
our questions are what implications that would have on ongoing 
and future operations against ISIL, Al Qaeda, and other 
terrorist groups in Afghanistan.
    And we are fortunate to have General Campbell with us to 
answer these and many other questions today, but before turning 
to him I would yield to the distinguished ranking member, Mr. 
Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I appreciate you 
holding this hearing.
    I want to thank General Campbell for being here and also 
for his service. I think he is the absolute right man for the 
job in Afghanistan. Certainly he has had a lot of experience 
there in a number of different roles during our conflict in 
Afghanistan.
    And I think there has been progress just since General 
Campbell took over, and I will go ahead and give you all the 
credit for this. They finally arrived at a power-sharing 
arrangement within the Afghan government; signed a bilateral 
security agreement; and really laid the foundation, at least, 
to build off that solid government and build a partnership, 
unlike in Iraq, where we had, you know, very, very strong 
difficulty getting any sort of bilateral security agreement 
that would allow us to stay. We have achieved that.
    As the chairman mentioned, President Ghani wants us to be 
there, and hopefully we can make that relationship work to help 
maintain the security.
    Ultimately that, you know, that is the big challenge. 
Afghanistan has got to be responsible for itself. They have got 
to be able to provide for their own security, and they have 
made great strides in doing that.
    As I am sure the general will point out, they have taken 
over the primary security role throughout the country and have 
done okay. Not going to, you know, sugar-coat that. It is still 
a very tough fight.
    But they have held their own, they have managed to keep the 
country relatively stable in light of the insurgency, and we 
need to build on that because ultimately in Afghanistan and 
Iraq and all of these countries, Western military forces cannot 
impose security on another country. There is, you know, I mean, 
a fine line between helping them and appearing like a foreign 
occupying force. In this case, as we draw down and up the 
responsibility of the Afghan security forces, I think we have 
done it about right, giving them that responsibility.
    But going forward, there will continue to be many, many 
challenges. The government still has corruption problems. The 
Taliban are still very active. The border issues with Pakistan 
have not been resolved.
    And we definitely have a security interest in that region. 
As I have said many times before in this committee, I wish we 
didn't. It is a very, very difficult place to deal with.
    But we do. The Taliban, Al Qaeda, these are groups that are 
part of the larger movement that threatens us, so we need a 
strong presence there that can help contain that--but again, 
hopefully one that builds towards self-sufficiency and the 
Afghan people being able to stand on their own, provide for 
their own security and their own governance.
    I look forward to hearing from the general today on how we 
are progressing on those goals and where we go from here.
    With that, I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Just on an administrative note, all members' offices were 
notified yesterday that for the purposes of this hearing we are 
going to go in reverse order for those who were here at the 
gavel. Part of my thinking is we have had a number of members--
newer members who have sat through a long time on other 
hearings before you have gotten to answer questions. In 
addition, those of us who have been here a while have had the 
opportunity to ask a number of questions about Afghanistan, and 
so this is a good opportunity for newer members.
    So after we hear from General Campbell, we will start at--
go in reverse order for everyone who was here at the time of 
the gavel, and then, as we always do, recognize members in 
their order of appearance of coming into the committee room.
    So, General Campbell, again, thank you for making time to 
be with us. Without objection, your full written statement will 
be made part of the record, and the floor is yours.

STATEMENT OF GEN JOHN F. CAMPBELL, USA, COMMANDER OF OPERATION 
          RESOLUTE SUPPORT AND U.S. FORCES-AFGHANISTAN

    General Campbell. Chairman Thornberry, Ranking Member 
Smith, and distinguished members of the committee, thank you, 
really, for the opportunity to appear before you today. I am 
honored to lead and represent the service men and women of 
United States Forces-Afghanistan.
    And I would like to begin by thanking the committee for 
your steadfast support of our soldiers, our sailors, our 
airmen, our marines, and our civilians. And due to your 
leadership and commitment, they are the best-trained, best-
equipped force our Nation has ever deployed, and their 
outstanding performance bears testimony to your backing and the 
backing of the American people, so thank you very much.
    I would like to pay tribute to our military families. They 
are the unsung heroes of the last 13-plus years of our 
conflict. In many ways, our frequent absences from home are 
harder on them than they are on us, and without their love and 
support and their strength, we could not succeed. So I thank 
the military families.
    I would also like to recognize the over 2,200 service men 
and women who have been killed in action in Afghanistan and the 
over 20,000-plus who have been wounded. Each day we strive to 
bring meaning to their sacrifices. And we honor their memories 
and their loved ones by continuing to build a secure and stable 
Afghanistan and by protecting our own homeland.
    Over 13 years have passed since the 9/11 attacks, and we 
haven't forgotten why we first came to Afghanistan and why we 
remain there. And since 2001 the extraordinary efforts and 
courage of our forces have ensured that another terrorist 
attack originating from Afghanistan and directed against the 
U.S. homeland has not occurred.
    Over 6 months have passed since I assumed command, and much 
has changed since then. Afghanistan, the region, the enemy, and 
our coalition have undergone many tremendous transitions, and 
most of these have been very positive.
    I would like to emphasize a few of these today in order to 
place our current campaign in context and to really reaffirm 
the conditions that exist for us to achieve an enduring peace 
and potential strategic win for Afghanistan.
    And in September Afghanistan completed the first peaceful, 
democratic transition in its history, and this was after a 
prolonged--very prolonged campaign. And this transition was a 
monumental achievement. It represented the Afghans' commitment 
to a democratic and open society.
    The difference between the new national unity government 
and its predecessors is night and day. President Ghani and 
chief executive Abdullah have embraced the international 
community, our coalition, and the Afghan National Defense [and] 
Security Forces, or the ANDSF.
    Our partnership is strong. We now have a ratified bilateral 
security agreement, and, sir, I would just tell you, a lot of 
people worked very, very hard for that; and the NATO [North 
Atlantic Treaty Organization] status of the forces agreement, 
which grant us necessary authorities to continue our mission.
    Dynamics within the region continue to evolve, as well. 
President Ghani has made regional engagement a top priority in 
order to address shared security and economic interest. Nowhere 
is this more evident than in Pakistan and Afghan relations. The 
Pakistani Taliban's murderous attack in Peshawar on 16 December 
may prove to be their 9/11 and really a game-changer for the 
region.
    Most senior Pakistani officials recognize that they can no 
longer separate good terrorists from bad terrorists. And in the 
last few months I have witnessed firsthand substantive 
improvement in the interactions between Afghan and Pakistani 
militaries. They are now talking.
    General Raheel, the Pakistan army chief of staff, remarked 
during his recent trip to Kabul, ``The enemies of Afghanistan 
are the enemies of Pakistan.'' And this is a constructive 
admission, and we are doing everything we can to promote their 
closer cooperation. And while we must temper our expectations, 
I remain optimistic that both countries are working towards a 
more productive relationship.
    The enemy remains in a state of flux, too. The Taliban 
failed to achieve any of their stated goals in 2014. They 
failed to disrupt the elections; they failed to undermine the 
political transition; and they failed to prevent the Afghan 
government from signing a long-term security agreement with 
both NATO and the United States.
    On the battlefield they achieved no enduring gains. Mullah 
Omar hasn't been seen in years.
    The Taliban's senior leadership is in disarray. Constantly 
pressured by the ANDSF, suffering from dissension within their 
own ranks, and lacking popular support, they have turned to 
high-profile terrorist attacks, particularly against soft 
targets inside of Kabul. In a desperate attempt to remain 
relevant, they are failing to win over the Afghan population.
    With the coalition off the battlefield, they are primarily 
killing their fellow Afghans and Muslims, and they are 
murdering innocent civilians. And it is time now for them to 
lay down their arms and heed President Ghani's call to help 
rebuild the Afghan nation.
    The possible rise of Daesh, or ISIL, is also a new 
development. Thus far, we believe that the Daesh presence in 
Afghanistan represents more of a rebranding of some of the 
marginalized Taliban, but we are still taking this potential 
threat, with its dangerous rhetoric and ideology, very, very 
seriously. We are working very closely with the ANDSF to 
evaluate and understand the dynamic nature of this fledging 
network.
    The potential emergence of Daesh represents an additional 
opportunity to bring both Afghanistan and Pakistanis together 
to confront this common threat. We will continue to engage 
leaders from both countries on ways we can collaborate to meet 
this challenge. We are all driven to prevent Daesh from 
establishing a meaningful foothold in Central Asia.
    United States Forces-Afghanistan and our coalition have 
undergone tremendous changes, as well, here in the last 6 
months. On January 1st, United States Forces-Afghanistan 
formally ended its combat mission, Operation Enduring Freedom, 
and commenced its new mission, Operation Freedom's Sentinel.
    We have also ended all detainee operations. Simultaneously, 
troops from 41 nations, which comprise the new NATO mission, 
Resolute Support, began executing their train, advise, and 
assist mission in order to develop the capabilities and long-
term sustainability of the ANDSF.
    On January 1st the ANDSF also assumed full security 
responsibilities. They are ready, and it is time. In their 
second fighting season in the lead, the ANDSF were challenged 
and tested, but they held their own against a very determined 
enemy.
    On the battlefield, the ANDSF fought tenaciously and 
demonstrated their increasing capabilities. Today, the 
government of Islamic Republic of Afghanistan remains firmly in 
control of all 34 of its provincial capitals and all of its 
major cities.
    The Afghan special forces, in particular, have proven to be 
the most proficient in the entire region. They have constantly 
executed unilateral, direct-action missions using their own 
intelligence, using their own Special Mission Wing helicopters 
to carry out long-range insertions in low illumination. These 
are remarkable capabilities for any military.
    For both the ANDSF and coalition, Afghanistan continues to 
be a dangerous place. Tragically, we lost a coalition soldier 
from Turkey last Thursday in a suicide attack inside of Kabul.
    ANDSF casualty rates increased in 2004--or 2014, excuse 
me--roughly 5 to 7 percent higher than they were in 2013. 
However, I think this must be viewed in light of the fact that 
their operational tempo was four times greater than it was in 
2013 and that over 100,000 coalition forces were not on the 
battlefield. Even considering the higher casualty rates, the 
ANDSF attrition rates, which account for all losses to the 
force, have not impacted combat readiness too severely.
    Army and police recruiting has not been a problem. Afghan 
youths continue to join the ranks of the ANDSF.
    And service in the security forces is widely respected and 
viewed as an honorable, patriotic profession. The Afghan 
National Army remains the most trusted institution in the 
country.
    On balance, after watching the ANDSF respond to a variety 
of challenges over the past 6 months, I don't believe the 
insurgents represent an existential threat to the government. 
However, ANDSF still need a great deal of help in developing 
the systems and processes necessary to run a modern, 
professional army and police force.
    They also need sustained support in addressing the 
capability gaps of aviation, intelligence, sustainment, and 
special operations. To address these gaps, our advisory mission 
and mentorship will continue to be vital. Our advisors are at 
the security ministries, at the army corps level, in police 
zones, and those remain our main efforts.
    Although clear challenges exist, I do believe that the 
ANDSF capabilities, their capacities, and their morale will be 
sufficient, backstopped by our advisory efforts. And this will 
provide for Afghanistan's long-term security by the end of the 
Resolute Support Mission.
    President Ghani recently remarked that, ``Compelled by 
tragedy and cemented by mutual sacrifice, the partnership 
between Afghanistan, NATO, and the United States has entered a 
new phase.'' And I believe we are at a very critical inflection 
point in our campaign.
    Many challenges remain before us as the new Afghan 
government continues to form. It is still finding its footing, 
and it must do so while contending with a security threat, 
corruption, and economic challenges.
    Yet, all of these changes, transitions over the last 6 
months offer us really a tremendous opening and an opportunity. 
The Ghani administration offers us a strategic opportunity to 
develop a strategic partnership that will stabilize Afghanistan 
and then, in turn, provide and offer greater security for the 
region, and ultimately the United States homeland.
    There is a new spirit of cooperation in Kabul--something we 
didn't have before. And I firmly believe that our concurrent 
counterterrorism and train, advise, and assist efforts will 
reinforce and deepen our strategic partnership and shape 
conditions for a favorable outcome to this conflict.
    We could offer no greater tribute to the American people, 
our fallen, and their loved ones, than by maintaining our 
commitment to a long-term stability of Afghanistan and the 
enduring protection of our homeland.
    I would like to direct the members' attention to the charts 
and a couple photographs to your right front that we displayed. 
We have also provided paper copies for you to look at.
    [The information referred to can be found in the Appendix 
beginning on page 81.]
    General Campbell. And I am often asked, ``What have we 
accomplished? What have we achieved? What is success? Has it 
been worth it?''
    And I frequently share these statistics and images to 
underscore the tremendous progress that has taken place in 
Afghanistan in the last 13-plus years. Every measurable piece 
you take a look at--roadways, people who use the Internet, 
number of people in school, females in school, the workforce. 
Pretty incredible. It is unprecedented.
    The life expectancy, increase of 21 years just in the last 
13 years. That is unprecedented. A remarkable return on our 
investment.
    And few countries advanced so rapidly over the last several 
years, and that is success. And the coalition and our ANDSF 
created the conditions for that success--741 million years--
life years of Afghanistan people, based on new life expectancy.
    And I want to underscore that we are underwriting this 
progress not just for the Afghans, but for the American people. 
And the Afghan stability and security contributes to our own.
    The next two will be pictures of where we were in 2001 and 
where we are in 2014. And the first one shows inside of Kabul 
then, and on the bottom now. That is at Maiwand Circle. And 
then Kabul at day--or Kabul at night, I am sorry. Fifth fastest 
growing city in the country. Remarkable difference.
    We have undercut the terrorist appeal, which feeds on 
desperation and instability. The hard work and significant 
sacrifices of countless U.S. and coalition military personnel 
and civilians over the last 13-plus years has created the 
conditions where Afghans can now take the responsibility for 
their own security and governance.
    The Afghans welcome the opportunity to shape their destiny, 
but they will--still desire and need our assistance. We are 
supporting the emergence of a secure, prosperous Afghanistan 
that desires to be and can be our reliable strategic partner, 
and one that will never again allow terrorists to use its 
territory to launch--to plan and launch attacks against us.
    President Ghani has asked for additional flexibility in the 
NATO and U.S. mission to account for the fact that his 
government remains in transition. He acknowledges that while 
the ANDSF are better equipped--better equipped and trained than 
ever, work remains to build their bureaucratic processes and 
systems. Additionally, he believes that a sustained U.S. and 
NATO commitment provides vital stability to the country as a 
new government solidifies--a tremendous psychological boost to 
the Afghan people.
    We will continuously assess the progress of Resolute 
Support, and United States Forces-Afghanistan is currently 
involved in a comprehensive winter review of our campaign. And 
this review is taking a look at all of our lines of effort, not 
just the military.
    And I have provided various options and recommendations for 
adjusting our force posture through my chain of command. One 
issue is to determine how long we should stay and can stay 
engaged at the regional level before we concentrate inside of 
Kabul.
    Once again, I express my profound gratitude to the 
committee members for your unfailing support of our mission and 
our troops in Afghanistan. I am humbled and privileged to lead 
the men and women of their caliber and courage, and every day 
they are making all of us proud.
    And I ask that, again, sir, as you said, that my written 
statement submitted earlier be taken for the record. I do look 
forward to your questions, and I notice that the first two rows 
are filled sir, so I look forward to that, as well.
    So thank you.
    [The prepared statement of General Campbell can be found in 
the Appendix on page 51.]
    The Chairman. Thank you, General.
    And I would just say, I appreciate the data that you 
brought to us. Some of this is surprising to me, and I--some of 
the information about the attitudes of the Afghan people I 
think are helpful to us--are particularly helpful to us.
    I think Mr. Smith and I are going to withhold our questions 
at the moment. I would request if we could put the posters 
down, just to--unless members have questions about it, just to 
not block folks' view.
    And I would yield 5 minutes to the distinguished gentleman 
from New Jersey, Mr. MacArthur.
    Mr. MacArthur. Thank you, Mr. Chairman.
    And, General, I also really appreciated your comments and 
want to echo what you said about our men and women in uniform 
and their families and the sacrifices they have made. I think 
it is important at every opportunity to remember them.
    I had a question about a comment that Secretary Carter made 
yesterday, and I want to get your take on it. Secretary Carter 
told the Senate Armed Services Committee that withdrawal from 
Afghanistan would be conditions-based. It seemed to me that 
hinted that maybe there was no firm deadline for withdrawal, 
and my understanding has been that there has been an 
articulated plan by the President to have troop drawdowns by 
the end of 2016.
    So my question for you is, do you think that extending 
withdrawal past 2016 would help you better accomplish your 
goals on the ground?
    General Campbell. Sir, thank you for the question, and I 
did see the Secretary's comments. So I have really provided 
options that stay within the framework of what the President 
put out there, and it does show the current plan as 9,800 U.S., 
going down to 5,500 by the end of December of 2015, going down 
to between 1,000 and 1.5--1,500 by the end of 2016.
    The options that I presented forward did not go past 2016; 
they are all providing flexibility within 2015 and 2016, sir.
    Mr. MacArthur. Not to put you in a difficult position 
relative to stated goals by the President, but it is helpful 
for us to get your perspective as the commander on the ground. 
You showed tremendous progress here, which we, I think, all 
celebrate and want to see that continue and be in a position to 
be sustained after our mission there is complete.
    What would be your level of confidence that you can achieve 
that by the end of 2016?
    General Campbell. Sir, honestly, I will be very candid, and 
I owe you my best military advice, as I do to, you know, my 
chain of command. I do not know what we can accomplish in the 
summer fighting season 2015 at the train-advise level that we 
are currently conducting.
    We just started the new Resolute Support Mission on 1 
January. What I really want to make sure we could do is get 
through a full, what we call a fighting season, April through 
the late September timeframe, focused on train, advise, and 
assist, plus with our CT [counterterrorism] mission.
    And if we can--if we look at a downsize of the 5,500, that 
potentially could take our eye off a focus on train, advise, 
and assist when we really need it. So that is why the 
flexibility, I think, is very, very important.
    You know, as the commander on the ground we take a look at 
all the different conditions that are out there. We 
continuously make assessments, taking into account the enemy 
situation, the friendly forces, how they are doing, the people, 
the different regions. And so all those will go in as I 
continue to make assessments and provide that.
    But I really do need to understand and see what we can do 
with these new entities what we call TAAC--train, advise, 
assist commands--that we have in the--in our spokes in Gambir 
and Jalalabad out in the east and Kandahar in the south, Herat 
in the west, and Mazar-i-Sharif in the north. This is a new 
dynamic. We haven't been at that level before.
    My initial assessment right now is we will continue to work 
very well, and the Afghans really do--you know, over the last 
13-plus years, have continued to develop. This is my third time 
in Afghanistan. My last time was as the Regional Command-East 
Commander 101st [Airborne Division], 2010 and 2011. Visited a 
couple times in between 2011 and when I took over this summer.
    The difference from back in 2010 and 2011 to where we are 
today is just night and day. It is incredible.
    The Afghan security force has continued to progress. They 
have an operation ongoing now--I won't go into great detail 
because it is an ongoing operation in northern Helmand, but 
this was an operation that was entirely planned and led from 
the Afghan perspective. I took back briefs on it about 3 weeks 
ago when I was down in Helmand.
    This is a three-corps operation. The main effort is the 
215th in Helmand. It has supporting efforts from the 205th in 
Kandahar, the 207th at Herat. I have never seen an Afghan 
operation that was that complex back-briefed to me and the 
senior leadership inside of Afghanistan and the police and the 
army side, and integration between all the Afghan security 
pillars--the police, the army, their intelligence was pretty 
remarkable, and so I think they continue to get better and 
better. I think I would be able to answer that better after we 
get through this fighting season to really see how the train, 
advise, assist goes, but I do believe that the flexibility that 
we have asked for in several different options and that we put 
forward will provide us a better opportunity to take advantage 
of things that have changed over the last 6 months--President 
Ghani and his embracing of the international community, the 
relationship between Pakistan, some changes in leadership in 
the Afghan security forces.
    And I really do think that leadership and then holding 
people accountable really makes a difference.
    Mr. MacArthur. Thank you, General. I yield back.
    The Chairman. Thank you.
    Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman. I appreciate the 
change in format. I will be sure to add you to the Christmas 
card list. Thank you for that.
    Thank you, General, for being here. With respect to the 
AUMF, if Congress were to pass the proposed AUMF could you 
provide us with examples of what you could and could not do 
within that?
    General Campbell. Thanks for your question, sir. I mean, I 
have not read the entire AUMF. I could tell you from looking at 
it briefly that what that would provide--I mean, the 
authorities I have today and the resources I have today I can 
continue to work hard at the CT mission and the train, advise, 
assist mission that I have.
    With the AUMF, the way I understand it now, with no 
geographical boundaries I think I still would be able to 
prosecute what I need to for today. After 2015, where my 
authorities may change, then I would have to go back and relook 
that hard. But, sir, today I have no issues, as I think General 
Austin said from CENTCOM [U.S. Central Command] yesterday with 
that.
    Mr. Aguilar. Have detention policies at all changed post 1 
January?
    General Campbell. Sir, absolutely. I do not have the 
authority to detain the insurgents. So all detainees that we 
would have had, they have been turned over to Afghanistan or 
other countries. I have no detention facilities inside of 
Afghanistan.
    Mr. Aguilar. Thank you.
    One of the things we have talked about extensively is risk. 
Can you talk to us--and you mentioned in your testimony that it 
wouldn't be affected too severely, but could you add some more 
color to the discussion of risk associated with the proposed 
drawdown?
    General Campbell. Sir, risk, you know, takes in a lot of 
different factors--the risk to the coalition and U.S. forces, 
the risk to the Afghan security forces. I think, again, any 
commander on the ground would like to have more resources, more 
people. We continue to work hard through that.
    As I make the assessment today and take a look at many of 
the things as we have drawn down--I don't say withdrawal, but 
we are in a continuous transition. And I think for the next 2 
years-plus it will be a continued transition; we have to adapt 
to those transitions.
    But as you transition you lose people, which provides 
security. Most of my force protection and security is by, with, 
and through the Afghans as we consolidate.
    We have gone from 300-plus COPs, combat outposts, and 
forward operating bases to less than 25 today. So that 
increases the risk in some areas to force protection, to 
security.
    As you continue to transition forces you lose some 
resources, so the number of aircraft, the number of ISR 
[intelligence, surveillance, and reconnaissance] platforms, all 
those things goes into the calculus as I take a look at the 
risk assessment both to risk to mission and to risk to force.
    And again, as I looked at flexibility--President Ghani 
asked for flexibility. As I looked at that I did take in 
account all those to try to mitigate risk to force and risk to 
mission as we move forward.
    Mr. Aguilar. Can you give us some examples--and I know it 
could be speculative, but could you give us some examples of 
things that President Ghani may discuss when he addresses 
Congress later this month?
    General Campbell. First off, sir, with President Ghani and 
Dr. Abdullah, the senior--the CEO [chief executive officer], I 
mean, it is really a new dynamic, and I have had to deal with 
President Karzai when I first got there in times afore, and I 
think the American people--all the people need to understand 
that every time President Ghani or Dr. Abdullah address a crowd 
they thank the international community.
    They thank the U.S. in particular; they pick the U.S. out. 
They thank them for their support. They thank the families for 
the sacrifices of their sons and daughters.
    You never would have heard that before, so it is a 
completely different atmosphere. I think the President will 
talk to all of you about that. I think he is quite proud of 
that.
    He is quite proud that he has taken on his leadership role 
as a commander in chief. He has visited training sites. He has 
visited military hospitals.
    He engages with the corps commanders. I mean, I attend 
their national security conferences. I am able to talk to them 
about different security issues at any time. I think he would 
tell you he spends probably 40 percent on security, 40 percent 
on the economics and where they need to go.
    But I think he will really talk about, you know, where 
Afghanistan has come over the last 13 years, where its security 
forces are, where it would not be without the help of the great 
coalition and the U.S. in particular, not only for the men and 
women that have made sacrifices, for our families, but also for 
the economic impact that the U.S. provided, along with many 
other donor nations.
    I think he may talk a little bit about how he sees the 
future and how he is going to get after corruption, and how he 
will continue to attack that and how he is going to broaden the 
perspective and deal in terms of a regional aspect, how he is 
engaged with Pakistan, India, China, Saudi Arabia, the entire 
region, and how he needs to do that both from an economic 
perspective but also from a security perspective.
    Sir, I think he is looking forward to it, and I think all 
of you will find that he will be very engaging and his message 
will be one of thanks, but also that he has a great vision for 
the future of Afghanistan.
    Mr. Aguilar. Thank you for your continued service, General. 
Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Knight.
    Mr. Knight. Thank you, Mr. Chairman.
    General, I would like to talk about a couple other things. 
Let's talk about readiness of the forces.
    This has been a generation that could have gone into their 
military career in 1990 and now be retired, and have been--or 
have seen battle for the last 24 years. So here in Congress we 
worry about things like sequestration, we worry about readiness 
of force, and worry about one-to-one ratios of young men and 
women being over there for a year and being back here for a 
year, or 6 months and a year, or something of that nature.
    Can you give us an idea of the readiness of force today as 
compared to maybe 4 or 5 years ago, or even 10 years ago?
    General Campbell. Sir, I can talk better and give you a 
perspective on the readiness of forces that I get from the 
services, as they are service providers. A little bit different 
perspective when I was the vice chief of the Army before I went 
over there 6 months ago. But all the forces that I get in 
Afghanistan, particularly from the U.S., are trained at the 
highest level and are focused on their mission in Afghanistan. 
So no issue with that.
    And I think all the services prioritize their deploying 
forces first to ensure that they get that necessary training 
because they will be putting their lives on the line.
    On the sequestration, I will just tell you that it was 6 
months ago when I was a vice and I continue to talk to senior 
leadership from all the services that with sequestration that 
would devastate the services and their ability to provide the 
same type of forces that I get today.
    You know, my son is a sergeant in the Army. He has been to 
Afghanistan twice. He has served in Ghazni; he has served in 
Jalalabad. He was in the 82nd Airborne [Division]. He is 
currently in the 101st.
    And I worry about, you know, both as a father and then as a 
commander, the ability to make sure that we continue to provide 
the very best training, and all the resources and the things 
that go with that, for our soldiers, sailors, airmen, marines, 
and our civilians that deploy. And sequestration would put--
would dampen that--would elevate the risk, absolutely.
    Mr. Knight. Thank you. And I think that you have got a lot 
of committed people here that believe that, too.
    Secondly, when we talk about detainees and you say that you 
turn them over to the security forces or to Afghan--what 
happens from there? Is there some sort of a prosecution?
    Is there some sort of judicial action there? Or are they 
just detained? Or are they released?
    General Campbell. Sir, it is probably all of the above, 
quite frankly. But with the detainees that we had there was a 
long process we went through to get assurances from either 
countries that they were sent to or to Afghanistan, as well, to 
make sure that the right assurance was put in place that they 
would be tried, if they had to go through that process that 
they would be treated humanely.
    And so that was carefully taken a look at, at all of the 
different detainees that were released from U.S. control, 
coalition control. Again, no longer do we have detention 
facilities.
    Inside of the Afghan system that continues to grow. Up at 
Parwan outside of Baghram is probably the very best detention 
facility in all of Afghanistan, continues to be I think the 
gold standard that they have there.
    They are in the process right now, based on direction from 
President Ghani, to move really the national threat detainees 
to Parwan and get them out of places that are overcrowded, like 
down in Kandahar or Pul-e-Charkhi, inside of Kabul, to make 
sure that they can lessen that, that they have the right 
security so that they are not freed without going through the 
proper trials.
    And so I think they continue to work that very hard, but 
Parwan is a gold standard. It has the right prosecution 
efforts, has the right folks, the judges all kind of contained 
in one unit there. And we do have a very small train and 
advise, assist cell that will continue to help build that 
capability for them.
    Mr. Knight. Thank you, General. I yield back, Mr. Chair.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    And, General, thank you very much for joining us this 
morning. I was impressed by what I saw on the CODEL 
[congressional delegation] 2 weeks ago, with the progress that 
you have made.
    And I share the chairman's view of the situation in Iraq, 
where I think that all the progress that we made, or much of 
the progress we made during the surge, has now been squandered 
by withdrawing too quickly and not providing the ongoing 
political and diplomatic support that we frankly knew was 
necessary, that Ambassador Crocker and General Petraeus called 
for at the end of the surge.
    So, I am interested to hear from you what specifically you 
are doing differently in Afghanistan this time around. And I 
will add that I have the highest respect for President Ghani, 
but I am not interested in hearing what is different about our 
partner, because I think that after you invest trillions of 
dollars of our national treasure, after you invest thousands of 
lives, we shouldn't leave the eventual success of our mission 
up to the whims of our partner.
    So I am interested in what you and the U.S. effort there is 
doing differently from Iraq.
    General Campbell. Sir, thanks for the question. And again, 
thank you for visiting our troops there. I apologize for not 
being there. I was back here doing the SASC [Senate Armed 
Services Committee] testimony as you were forward.
    So I would think--again, I spent 19--18, 19 months in Iraq 
as a one-star back in 2006, 2007 during the surge, inside of 
Baghdad. And I think the fundamental difference for me is 
really the Afghan security forces and their leadership and 
their determination to make sure--they see the news, they see 
the media.
    They understand what is going on with Iraq. And they have 
personally told me, many of the senior leadership, that they 
will not let happen to Afghanistan what happened to Iraq.
    You know, during the political instability last fall many 
people thought that they would divide among the ethnic 
fractures, which is what happened inside of Iraq. In 
Afghanistan they did not do that, despite a lot of talk. In 
fact, they solidified around that and took that as a point of 
pride to make sure that they didn't fracture, and that they 
were above that, and that they were a national force, and they 
take great pride in doing that.
    I think the training that I have seen for the most part is 
all Afghan-led training. I was out in the 207th Corps in Herat 
a couple weeks ago and kind of unannounced I said let's--I 
asked the corps commander, ``Let's go look at some training.'' 
He took me to medical training, to some of their marksmanship 
training. I saw them clearing buildings.
    Again, this was unannounced----
    Mr. Moulton. General, with all due respect, that is 
fantastic news, but that is what the Afghans are doing and that 
is how the Afghans are doing things differently than the 
Iraqis. But what are we doing to ensure that?
    I mean, President Ghani is a great partner today. He could, 
you know--God willing, this won't happen, but he could be gone 
tomorrow.
    So what sort of backstops are we putting in place to ensure 
that if this does start to head south for any reason, we can 
recover and we won't end up with a situation like we had with 
Prime Minister Maliki in Iraq?
    General Campbell. Sir, now thanks. I think really for me 
the continued train, advise, assist at the ministry level and 
what we are doing with the MOD [Ministry of Defense] and the 
MOI [Ministry of the Interior], and all levels of both those 
organizations that control the army, that control the police.
    We are working on their transparency, accountability, 
oversight. We are working on their planning, programming, and 
budgeting. We are working on their sustainment. We are working 
on their planning capability. We are working on their strategic 
communications. Working on their intelligence.
    These are all essential functions that we think they need 
to continue to have, you know, as we come out of there. And I 
think our continued work in those areas at the ministry levels 
will continue to help that.
    The other piece is that they are looking hard at ensuring 
that they are a professional army and a professional police. 
And they have leadership courses that continue to go on. They 
pick bright leaders at all the ranks and bring them into 
special courses on leadership, and they understand the 
leadership makes a difference--I think different from what you 
saw in Iraq.
    Mr. Moulton. Are you seeing the State Department devote the 
level of resources needed to continue this mentorship and 
support at--on their diplomatic side of the house?
    General Campbell. We have a great relationship with 
Ambassador McKinley and the folks, you know, right--we are 
connected right next to embassy there. They don't do the MOD 
and MOI, but they are engaged in all the other ministries and 
the NGOs [non-governmental organizations] there, and I do think 
that they are very dedicated and they continue to work very 
hard.
    Again, all the coalition, all the state department of all 
the different embassies are all there because they are 
passionate about where Afghanistan could go in the future. They 
are excited about the future of Afghanistan.
    I think everybody is working very hard, and the fact that 
what has happened in Iraq has been on the news, this gives them 
more determination to say, ``This ain't gonna happen here.''
    Mr. Moulton. And just my last question, just to ensure that 
we are maintaining our commitment to the long-term stability of 
Afghanistan, as you said in your earlier--in your spoken 
testimony, what is the ongoing financial commitment of the 
United States to make that happen?
    General Campbell. Sir, we are looking very, very hard at 
how we continue to be more efficient and how we can reduce 
that, but it is about--for 2015 about $4.1 billion; and looking 
at fiscal year 2016 I think I have got that down to about $3.8 
billion because of some efficiencies that we have garnered both 
in their forces and in how we operate, and we will continue to 
look at that very, very hard. They are very dependent upon the 
U.S. and all the other donor nations to have this army and 
police they have, absolutely.
    Mr. Moulton. Thank you, General.
    Thank you, sir.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you, General Campbell, for your service and 
leadership. I, too, had the privilege to participate in the 
CODEL chaired by our subcommittee chair, Joe Wilson, and I 
joined Congressman Moulton and Congressman Ashford on the trip. 
It was great to visit some of the troops deployed from my 
district.
    So my question is, in late February the DOD [Department of 
Defense] announced the three units to deploy as the upcoming 
rotation of forces in Afghanistan, and one of those units is 
the 2nd Brigade from the 10th Mountain Division, which I have 
the privilege of representing, which is located at Fort Drum, 
as you know. The 10th Mountain has supported operations in 
Afghanistan since 2001. It is the most deployed unit in the 
U.S. Army since 9/11 to both Iraq and Afghanistan.
    So based upon my visit and our privilege of meeting with 
President Ghani and the upcoming deployment of soldiers in my 
district that I represent, I would like to know from you your 
assessment of the risks to the security situation as we draw 
down in Afghanistan and how that will impact our future 
operations against the Taliban.
    General Campbell. Ma'am, again, thank you for visiting, and 
thank you for the question. I do have Colonel Pat Frank with me 
over here that commanded 3rd Brigade, 10th Mountain and was 
down in the southern part of Afghanistan back in 2010, 2011, 
and we are very appreciative of the 10th Mountain support.
    You know, what I would tell you is that they will come in 
and they will work the train, advise, and assist. Force 
protection is our number one priority. The President has told 
me that is his number one priority.
    I look at that every single day. We continuously monitor 
the threat streams both inside of Kabul and at all of our 
combat outposts and our TAACs. Every single day we are looking 
at ways on how we mitigate that threat.
    You know, but frankly, it will continue to be a very 
dangerous environment. There will be insurgents that want to 
kill our soldiers. You know, we shouldn't make--we shouldn't 
put that aside. That is out there every single day.
    So every day what we can't do is become complacent. We tell 
our soldiers, you know, that in a 9-month, a 12-month rotation 
that they have their--they will have an opportunity to make a 
difference.
    It may only be 15 seconds where they make that difference 
in their entire tour when it comes in terms of force 
protection. The issue is they don't get to pick when that 15 
seconds is, so they have to be ready all the time.
    And I think the services do a great job and our 
noncommissioned officers do a great job of preparing our 
soldiers to understand the risk that will become when they do 
deploy. And again, many of our soldiers have been there 
numerous times; they understand that.
    It is changing and we continue to take a hard look at that. 
The green-on-blue incidents that have been out in the news here 
the last several years, where we have Afghan soldiers or police 
attack coalition or attack U.S. members--that continues to get 
much less as we have mitigated that through our own training 
with different programs to provide over-watch. The Afghans do a 
much better job on vetting both soldiers and police in how they 
do their training.
    So that has gone way down and we feel, you know, we can't 
get complacent. We will continue to look at that.
    But believe me, ma'am, the force protection is utmost in 
our mind and we work that very hard in our pre-deployment 
training, and once they get into country they are continually 
reminded and go through processes that make sure that they 
don't become complacent.
    Ms. Stefanik. I wanted to ask one follow-up. In our 
discussions with President Ghani we talked about the threat of 
ISIS [Islamic State of Iraq and Syria] and the potential for 
ISIS to grow in Afghanistan and their most recent recruiting 
efforts.
    Does that concern you? Can you talk about what those 
challenges are going to be not just in the short term but the 
long term?
    General Campbell. Again, thank you for the question. You 
know, it is a potential threat, is how President Ghani has used 
that. A concern to him, so it is a concern to me.
    We take a hard look at that. We have engaged with our 
Afghan security partners in making sure we are seeing what they 
see, we understand how they see it. With all the other 
intelligence organizations that we have inside of Afghanistan 
we come together to discuss that potential threat.
    I will tell you right now, we have seen some recruiting in 
different parts of the country. We have seen some night letter 
drops.
    We have not seen it operationalize. We have not seen a lot 
of money come in and we have not seen those forces gather and 
prosecute targets at all.
    But again, it is a potential threat for Afghanistan and 
Pakistan. So as I said in my opening comments, it is an area 
where I think Afghanistan and Pakistan can continue to work 
together to go after a potential threat that has already 
displayed, you know, how horrendous they will be.
    And the Afghan security institutions and the army and the 
police have told me they will not let that happen. And the 
dynamics inside of Afghanistan are different than Iraq. You 
know, with the Sunni prosecution, how that has been in Iraq, 
the political piece.
    This is not just--didn't just happen here the last several 
months. This has been building up for years and years in Syria 
and Iraq, and in Afghanistan it is a different dynamic with the 
culture that you have there, as well.
    But we will see it, and we will continue to monitor it and 
make sure that we have a strategy that can attack it on a 
short-term, and mid-term, and a long-term.
    Ms. Stefanik. Thank you.
    The Chairman. Mr. Ashford.
    Mr. Ashford. Thank you, Mr. Chairman.
    And thank you, General Campbell. I can tell you that when 
we went to see General Ghani he was so terribly appreciative of 
your efforts and all the efforts of our military and our 
support personnel. It was absolutely incredible.
    I was also happy to hear from President Ghani that--of his 
relationship with the University of Nebraska at Omaha, and 
the--Tom Gouttierre and the Afghan studies program, which has 
been going on there for over 30 years. So I was glad to hear 
that.
    And I want to thank Congressman Wilson, who is the chairman 
of our Emerging Threats Subcommittee, for his leadership, and 
also my two colleagues, who--it was an immensely important 
opportunity for me and I think our district to see what was 
going on.
    Obviously we went to Jordan and Iraq and to Afghanistan, so 
we got the entire picture, in a way. And Congresswoman Stefanik 
I think asked a critical question that I was left with is--you 
know, we have many fewer members of the armed services in Iraq 
and--than we do in Afghanistan, and for historic reasons and 
for reasons that you have discussed.
    Could I just ask you to comment just a little more on this 
situation? If the ISIS situation becomes more--it already is 
very dangerous, but where more troops from the American side 
are necessary, or whatever the eventuality may be, could you 
just comment a little bit more on that interrelationship?
    President Ghani did talk about what you suggest, that they 
are observing, watching. He talked about his Pakistani--his 
openings to Pakistan and his discussions with Pakistan, which 
seem very, very positive.
    But this threat in Syria and Iraq, which is growing and--
but were contained to a certain degree, it is the same Middle 
East area, so how do you--again, could you just comment a 
little more on that interrelationship? What if it becomes more 
difficult for the Iraqi forces to be successful in their 
country? Thank you.
    General Campbell. Sir, I can't comment on the Iraqi forces; 
I can comment on the Afghan forces. And again, they have--the 
senior leadership of the Afghan police and army have told me on 
several occasions that, you know, they will not let what 
happened to Iraq happen to Afghanistan. They are very 
determined about that, have gone out of their way to tell that 
to me as, you know, that question has been raised in many 
different instances with them, and as they talk to their 
leadership, as they have talked to the President.
    The President brings this up, though, because he wants 
people to understand that the environment in Afghanistan 
continues to evolve. It is a dynamic environment and he doesn't 
want his forces to become complacent. He wants them to 
understand that what happened in Syria and Iraq and this 
network can jump stages of growing to this network, and that it 
evolves very, very quickly.
    And so I think he just wants to make sure that his forces, 
his intelligence services are taking a look at everything and 
making sure that it doesn't get a foothold inside of 
Afghanistan and continues to spread. And he can be helped with 
this association with Pakistan because they have the same 
issues there, and I think that relationship and understanding 
that they have a common enemy that they can work toward 
together will help them.
    So I think that they are looking at this very hard. He gets 
several security updates a day, and the Daesh or the ISIL piece 
continues to be on his mind.
    But in the National Security Council meetings that I sit in 
he has all the senior cabinet folks in there, that is a point 
of discussion in most of them. But I think they view it as a 
potential threat and ensuring that they have a strategy as we 
move forward, and I think they will--that will continue to 
evolve over time.
    Mr. Ashford. Thank you, General.
    And I would yield back my time at this point. I had a 
question about Pakistan I am sure it will be asked and 
answered, so thank you.
    The Chairman. Thank the gentleman.
    Mr. Zinke.
    Mr. Zinke. Thank you, Mr. Chairman.
    And, General, it is always good to see you again. I tell 
you, I sleep better at night knowing you are there.
    You know, as a former deputy commander and acting commander 
of special forces in Iraq, you know, I think we left Iraq too 
soon. I think we--when we left Iran or Iraq on a timeline 
rather than a condition on the ground, it affected the Sunnis; 
we disenfranchised them, I believe. We isolated the Kurds.
    We, to a degree, empowered a centralized government to be 
non-inclusive. And the result was a vacuum. And that vacuum, I 
think what we are seeing today, was filled by ISIS.
    And my concern is we don't repeat the same model in 
Afghanistan, and I think the concern of the committee remains 
the same.
    Looking forward, what would you consider to be your three 
priority conditions, and what is that end strength to support 
that?
    And lastly, in my experience, having a detention center--at 
least a temporary detention center--gave us the ability to 
rapidly turn around sensitive site exploitation and do follow-
on missions in a timely manner that made a difference on the 
ground. And not having the ability to have a detention center--
at least a temporary detention center--to me would adversely 
affect your ability, when you find a target, to rapidly turn 
around and do follow-on missions. If you would comment on that, 
whether, in fact, it does adversely affect your ability to turn 
around?
    General Campbell. Sir, thanks for your service, and thank 
you for the questions, as well.
    If I can answer the last one first, then come back to the 
ISIL piece on the intelligence. So intelligence, as you know, 
drives operations, and that is what we really try to instill in 
our Afghan partners, that all their operations should be 
intelligence-based, and we continue to work that very hard.
    We do have a very good relationship with the MOI and the 
MOD, and the NDS [National Directorate of Security], which is 
their intel [intelligence] service. And so as they have the 
detainees, we work a relationship to make sure that we can 
partner with them, and the intelligence, the information they 
get from their detainees, we try to make sure that we can get 
that information as well, because it impacts our force 
protection and we can also help guide them.
    They are building a fusion cell, which combines the MOD, 
the MOI, and the NDS together--lessons that we have learned 
over years and years. They are stove-piped where they are now, 
and so you have MOI working off different pieces, MOD working 
off pieces, and NDS working off pieces. And what we are really 
trying to force is this sharing.
    They are testing this really with a pilot down in northern 
Helmand in this operation today, and we are seeing quite good 
success off of this as they do share all that intelligence and 
understand that it makes them a better-capable force as they 
get this intelligence, turn it very quickly to drive to other 
targets. So I think our relationship over the last 13-plus 
years of working with them at the ministry levels now and at 
the corps levels, we have a relationship to enable to make sure 
that we can help them with that intelligence. So I feel 
comfortable where we are at.
    Still got a lot of work to do with that. They don't have 
the same type of ISR or those platforms that provide us some of 
that. We share where we can, but we have got to make sure we 
continue to build their capabilities.
    So we are working on how we build the intel capability. 
Intelligence is one of the eight essential functions that we 
continue to build at all the ministry levels. My senior deputy 
chief of staff for intelligence, the J-2, Major General Scotty 
Berrier, was a CENTCOM J-2 before this assignment. He really is 
the senior intel advisor that I have in country and he works 
with both the MOI and MOD to build that intel capability.
    So I feel much better than where we were on building that, 
and I think that is going to help all of us in the end.
    On the ISIS piece, sir, on conditions, you know, I take a 
look every single day and assess different conditions. Time is 
one of those conditions, number of people on the ground, both 
from a coalition perspective and from an Afghan security 
institution perspective is another condition.
    So I think I would take a look at all those. I really do 
want to take a look at what happens after this first full 
fighting season, where the Afghans are really totally on their 
own. They have led it for the last 2 years but this is the 
first time that they really are on their own and we really are 
just in the train, advise, assist and don't have the resources 
to provide for them, and they are working very hard on their 
own capacity for close air support, intelligence, and those 
areas.
    And so, you know, I can't give you a number that I would 
feel comfortable with right now. I think I need to let this 
play out.
    But I do believe that we are--the best thing that we can do 
to hedge against Afghanistan not becoming an Iraq, my number 
one priority would be to continue to train, advise, assist, and 
build their own capacity and their capability both in close air 
support, both in their special operating forces, which 
increases their CT capability. And they want to be--and 
President Ghani has said many times, you know, he is a 
strategic partner and wants to continue to build the Afghan CT 
capability so down the road they have that, and then we will 
continue to work with them on that.
    Mr. Zinke. I will follow up on the detention centers. Do we 
have the ability--if you get a high-priority target, do we have 
the ability to be present during those initial interrogations 
and interviews, or is it separate?
    The Chairman. The gentleman's time has expired.
    Is there a one-sentence answer, General?
    General Campbell. Sir, I would rather cover that with you 
in a closed session, sir, and I can give you a little more 
detail on that.
    Mr. Zinke. All right, sir. Thank you.
    The Chairman. Ms. Graham.
    Ms. Graham. Thank you, Mr. Chairman.
    And thank you, General. It is so good to hear some good 
news of--so thank you for your report.
    One thing that you stated is that the terrorist appeal has 
been undercut in Afghanistan. That is something that we need to 
figure out how do we bring that reality into other places in 
the region.
    But my question focuses on local law enforcement. I am 
aware that recently that Prime Minister Ghani has changed some 
of the leaders of the local police forces, and I was wondering, 
what is the interaction between military and law enforcement?
    My husband happens to be law enforcement, and I know how 
important it is to have that close relationship. It is often 
those closest to us that can have the greatest impact on our 
behaviors.
    So is the military involved in working with local law 
enforcement, and do you see that as a positive development with 
the changes in law enforcement recently in Kabul? Thank you.
    General Campbell. Thank you, ma'am, for the question. You 
know, in Afghanistan it really is--we talk about pillars and 
the security pillars, and the police and the army being two 
different pillars there. And what I tell people is when these 
pillars--they do cross-pillar coordination, they work together, 
the army and the police, then they are much stronger and they 
can't be beat.
    And I attend a Saturday 3-, 4-hour session every Saturday, 
which we call the senior security shura, and that has the 
senior members of MOD, the senior members of MOI, NDS, which is 
their intel arm, and then the national security advisor, 
Minister Atmar. And so the police and the army interaction is 
daily, every single day.
    The police operate a little bit differently. They do have 
the law enforcement aspect; they continue to work through that. 
But in many places they are the only security institution in 
the far reaches of Afghanistan, and so they are a threat to the 
insurgency.
    Afghan Local Police, which are designed to provide security 
inside of the villages, are probably the most attacked. They 
have the least amount of training, they don't have the same 
weapons as the regular police or the army. And so they do get 
attacked, but they do stand up and they do protect, and they 
are feared by the Taliban and the other insurgents because they 
are directly linked to the people inside the communities.
    But I think the linkage between the police and the army is 
a strong one and they continue to work it.
    In the provinces they have what they call OCCPs or OCCRs. 
These are institutions that the governors have that have 
police, army, and the intel folks all together inside one, for 
lack of a better term, an operational command and control 
element at both the regional and then at the provincial level.
    And they provide interaction between the police and army. 
They sit right next to each other in desks and work that, and 
then they interact with their higher headquarters, which also 
has police and army.
    In my headquarters inside of Kabul I have army--Afghan army 
representatives, Afghan police that sit right next to each 
other inside of my combined joint operations center, as well. 
So that interaction is very good.
    And if I could just hit the intel piece or the terrorist 
appeal piece, what I will tell you is that less than 10 percent 
of the people in Afghanistan embrace the Taliban, and that 
number continues to go down. And a lot of that is because of 
the actions of the Taliban, and they understand that the 
civilian casualty piece--although a report said something like 
75 percent are caused by the insurgents, you know, our records 
show potentially above 90 percent are caused by the terrorists, 
and the people are just frankly tired of this.
    And they want a better life--they want the exact same thing 
we want. They want to be able to send their kids to school. 
They want to be--have a roof over their head. They want to have 
a job to provide for them.
    And so they understand that underneath this national unity 
government--85 percent of the people want this government, they 
want it to do well, and they are tired of what--the Taliban and 
what they represent. That is a big change from where we were 
just a couple years ago.
    Ms. Graham. Well, thank you very much for that positive 
report. I want to correct myself--President Ghani, get his 
title correct.
    And let's hope that what you have accomplished in 
Afghanistan will continue and can be spread throughout the 
region. Thank you for your time, General, and your service.
    The Chairman. Ms. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman. Thank you, General, 
for being here.
    My question is, I think it has been fairly disconcerting--
it has to me, anyway--of how much information, when it comes to 
operational security, the President of the United States has 
given out and how we read it every day in the media. We learn 
about the withdrawal, the troop size; we learn, as the Taliban 
does at the same time, all kinds of unbelievable information.
    And to kind of follow up on my colleague's comment--and I 
really don't want to ask you this for public disclosure, but I 
want to ask you for this either in writing or a classified 
briefing. I want to know the detailed Plan B. What are the 
flags and the signs that are going to trigger our reengagement, 
should this go awry?
    I really do want to know, because I want to know that we do 
have a plan. And I don't want to ask it in public for everybody 
in the world to listen, because it really does concern me, but 
I would ask for you to provide that in writing or a classified 
briefing. What are we looking for that is going to happen so we 
don't end up again with more loss of blood and life and an 
engagement for America, as we are looking at in Iraq?
    [The information referred to is classified and retained in 
the committee files.]
    Mrs. Walorski. And then my other question is on this new 
AUMF with ISIL. As you understand your role--I had attended a 
briefing a couple of months ago and somebody was here from the 
State Department and we were talking about current rules of 
engagement, current AUMF as it pertains to Afghanistan with 
this train, advise, and assist mission. And my question 
specifically was, as we know ISIL is networking all over that 
part of the world, we know ISIL is looking around and 
recruiting in Afghanistan.
    So my question was--under this current operation you are 
under--was, ``If ISIL is identified by American troops or 
Afghan National Security Forces, in our train, advise, and 
assist mode that we are in, can we absolutely destroy ISIL when 
they are identified?''
    And the answer from the State Department was, ``No, ma'am. 
They would not be considered a threat to the United States at 
that point.''
    My comment was, ``I would consider the fact that we are at 
war with them and the mere existence of ISIL means we should 
destroy them.''
    So in your role right now, what is your understanding in 
your current AUMF when ISIL is identified? Are they taken out 
because we are at war with them or are they given a pass?
    General Campbell. Ma'am, thanks for your question. We don't 
talk about rules of engagement, obviously, and the tactics, 
techniques, and procedures, the TTPs that go along with that.
    I would just answer that and say that I am comfortable with 
the authorities that I have today that I can prosecute the 
mission both from a CT perspective and from a train, advise, 
and assist perspective, and also protect the force that I have. 
But I can't go into the rules of----
    Mrs. Walorski. I understand.
    General Campbell [continuing]. Engagement in this 
environment.
    Mrs. Walorski. I understand. And again, I would like to 
have a conversation or some kind of follow-up that talks about 
that in----
    General Campbell. Absolutely, ma'am.
    Mrs. Walorski [continuing]. At some point.
    And then also, with this new AUMF, what is the difference 
going to be in how you can engage ISIS now? Do you see further 
gains--do you have more advantages in this new AUMF than you do 
now?
    General Campbell. Ma'am, I haven't seen the final written 
document that has gone through, but I have glanced through 
pieces of it. I know that there is no geographical boundaries, 
which would help out in Afghanistan.
    I would have to do a more detailed look at that. But again, 
for right now I have the authorities that I need to be able to 
prosecute the CT and the train, advise, assist mission I have. 
I would have to take a harder look at that and I can come to 
you on the AUMF and how that would impact 2015, and then, you 
know, more importantly for me, as we transition----
    Mrs. Walorski. I appreciate it.
    General Campbell [continuing]. Into 2016 and beyond.
    Mrs. Walorski. And then, in relation to the size of the 
troops and the troop strength, 10,000, 5,000--10,000, 5,000--
compared to what you are doing right now, where are--what 
additional kinds of missions and what additional kind of 
coverage do you have right now that you are going to lose? And 
if that is something that we can't talk about here either I 
would like to have a conversation about that.
    When we are talking about drawing down from 10,000 to 
5,000, what are we actually losing there? And again, what steps 
are in between there that talk about for our purposes of the 
train, assist, and assist the Afghani forces?
    What does that mean? How much coverage, then, are the 
Afghan forces going to be having to do on their own? What does 
that mean as far as risk?
    I understand you probably can't talk about a lot of that 
here, but I really do want to follow up answers to those 
questions so that we know, as Members of Congress who are going 
to be voting on this new AUMF, that there really is some kind 
of a plan, and we are not going to sit here again--I don't 
think anybody can take anybody's word for anything. We may have 
all the faith in the world in this new President, but we also 
see how these things change on a dime. And I think we are--we 
owe the American public a chance to at least have seen, even in 
a classified setting, that there is a plan.
    So I appreciate it, and I look forward to your responses 
either in writing or in a classified briefing. Thank you, sir. 
I yield back my time.
    [The information referred to is classified and retained in 
the committee files.]
    General Campbell. Thank you, ma'am.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    General, I would first like to thank you and those who 
serve and have served under you, including the Bulldog Brigade 
from Fort Bliss in El Paso, Texas, for the incredible job that 
you are doing and have done in Afghanistan. And I join my 
colleagues in just thanking you for this terrific performance, 
which goes beyond any claims that someone could made or 
anecdote, but actually by the numbers and by the pictures and 
what we can see and what my colleagues were able to see in 
their recent visit.
    And I agree with many of the comments made so far that I 
think there are many lessons that we can apply from your 
success, this country's success, in Afghanistan to our 
operations and objectives in Iraq.
    When it comes to the proposed AUMF that we are considering 
to combat ISIS, my understanding that the immediate goal is to 
stop ISIS and ultimately to degrade, defeat, and destroy ISIS. 
What is our goal in Afghanistan relative to the Taliban?
    General Campbell. Sir, thanks. And I really do believe 
that, again, on the AUMF--I have to look at that harder and 
look forward to other questions in maybe a closed setting and 
we can talk through that on the resources that we have to be 
able to do that.
    Sir, on the Taliban piece what I would tell you is our goal 
really is to build the Afghan capacity, both in their police 
and in their army, to be able to have a secure, stable 
Afghanistan for the future. And the Taliban and their message, 
you know, is not having any traction with the Afghan people.
    As I said in my opening comments, it really is time now for 
the Afghan Taliban to take a look at what they are trying to do 
and become part of the political process. President Ghani, in 
his inauguration speech, opened the door there for them to come 
back and really work hard on reconciliation, which could 
potentially be a game-changer down the road. But, you know, 
that has to work with Pakistan and where they go, and where 
Afghanistan is, as they continue to build their Afghan security 
force capability.
    But I do believe that, you know, they want to get the 
Taliban to where they are part of the Afghan vision moving 
forward, and killing other Afghans is not part of that vision. 
And so they have to operate from a position of strength, and I 
think 352,000 Afghan security forces and another 30,000 Afghan 
Local Police give them that capability.
    And the Taliban now are looking around and saying, ``You 
know, the coalition forces, they have signed a BSA [bilateral 
security agreement], a SOFA [status of forces agreement]; they 
are going to continue to help and provide train, assist, and 
advise--you know, what we have been trying to do here for the 
last year. We have got to cut this out. We have got to come 
in.''
    And so I think that is really where we are going with the 
Taliban, but is because the Afghan security forces are going to 
drive this, not the coalition.
    Mr. O'Rourke. And to that point, I think we are seeing 
record casualties and losses from the Afghan security forces 
and thankfully, and much to do, I think, with your leadership 
and the service of our men and women on the ground, diminished 
casualties from coalition forces.
    You have, or military commanders have asked for additional 
flexibility, something that I think makes a lot of sense and 
fully endorse, given the lessons that we learned from Iraq and 
are learning from Iraq. I am assuming that flexibility includes 
the ability for airstrikes, raids against terrorists and those 
who seek to do us harm.
    What status--and to the degree that you can offer clarity 
in this--what will you have to see on the ground in that 
country to recommend that we no longer need that flexibility 
and that we can meet our--what is going to be in 2016 our goal 
of having normal embassy level of protection? Again, through 
numbers or as clearly as you can, describe what that condition 
will have to look like for you to make that recommendation.
    General Campbell. Sir, thanks for the question. If I could 
address the casualty piece first and just tell you that, as I 
talked about in my opening statement, 5 to 7 percent, probably 
larger or more increase than 2013; but again, if you put it in 
context, it is about--the operational tempo that both the 
police and the army have, four times greater than they had in 
2013.
    And again, 100,000 coalition were not out there, and so it 
was expected that casualties would rise. You know, one casualty 
is too much, but what we have continued to focus on are two 
things.
    One is continue to improve the Afghan capability to reduce 
the died of wounds and work on their CASEVAC [casualty 
evacuation], their MEDEVAC [medical evacuation], their doctors, 
their combat medics, their lifesaver capabilities. So we are 
working that all very hard. That continues to progress.
    And then also, the recruiting piece. They have got that 
much better. You know, they don't recruit all year round, like 
all of our services do. They kind of stop during the summer in 
the fighting season. Now they have got processes in place to do 
it kind of year round, and so it doesn't ebb and flow like 
that.
    And really the casualty piece is not the--is not really 
from a--the attrition rate is not just based on the casualties. 
In fact, the number one reason is leadership, and making sure 
they have the right leadership, as opposed to combat 
casualties.
    So what it would take for me, really, I think, to recommend 
that, you know, we would continue to transition and work a 
glide slope differently would--to make sure that the seams and 
the gaps that we have identified for a very long time, that we 
need to continue to work on the Afghan security forces and on 
their ministries, that we have gotten them to a level that they 
can have the processes that they need without us.
    So the areas of aviation. You know, we continue to build up 
our aviation capability. Their close air support. You know, the 
first thing I always get asked for is close air support, or 
building their close air support.
    And so when I get a request that says, ``Hey, can you fly 
close air support?'' I have asked them first, ``Do you have a 
quick reaction force out there? Have you fired your mortars? 
Have you fired your artillery? Have you taken your Mi-17s 
[transport helicopters] that have forward-firing machine guns 
on them? You have a few Mi-35s [attack helicopters]. Have you 
used those?''
    So we try to get all those out there to make sure they are 
working through those processes.
    We are working the MD-530, which is a Little Bird 
helicopter that has two 50-cal [caliber] machine guns on the 
sides. We will continue to work that.
    They won't have much for the next fighting season, but that 
will continue to develop. And we are working on a fixed-wing 
capability that provides them close air support in the future, 
as well, an A-29 Super Tucano. So that will continue to grow.
    But once we get the close--the aviation support, once we 
get their intelligence, once we work on their sustainment, once 
we continue to build their special forces capability, I would 
feel much better as we close the gap on those seams that we had 
out there.
    Mr. O'Rourke. Thank you, General. Thank you, Mr. Chair.
    The Chairman. Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    General, the President's stated policy is to take our 
strength from 10,800 troops in Afghanistan down to 5,000 troops 
by the end of 2015. In your best professional military 
judgment, is that the right end strength at the end of 2015?
    General Campbell. Sir, it is about 5,500, half of--
somewhere around 5,500 by the end of December, and again, the 
options that I provided I think provide flexibility both for 
President Ghani and as the commander on the ground to take a 
look at force protection and how to get after the train, 
advise, and assist.
    Mr. Bridenstine. In 2014 the Afghan security forces lost 
over 20,000 personnel to desertions and deaths. Does that 
concern you?
    General Campbell. Sir, the numbers, again, as I talked 
about, if you put it in the context then I think we are working 
processes and procedures to make sure that that doesn't have a 
great impact. As I said up front, it hasn't had a severe impact 
on their readiness.
    Any desertion, any casualty, of course that will--would 
concern me. It concerns their leadership. It concerns the 
President.
    But I think, again, it is about having processes in place 
to bring those people on board, to keep them in. And it really 
isn't about the combat casualties. That is a fraction of it.
    But the--a lot of the desertion piece is on leadership and 
making sure that, you know, people are looking at them and 
saying, ``Are they getting paid? Do they have the right living 
conditions?''
    Mr. Bridenstine. In your judgment, is there a correlation 
between our drawdown, cutting our troops by half, and their 
desertions?
    General Campbell. Sir, I haven't looked at that hard but my 
gut would tell me no.
    Mr. Bridenstine. Okay.
    On page 16 of your testimony you discuss the Islamic State. 
As the commander of U.S. forces in Afghanistan, you suggest 
that ISIS is your priority--is one of your priority 
intelligence requirements.
    Can you share with this panel--ISIS? What is going on with 
ISIS in Afghanistan now that makes it a priority intelligence 
requirement?
    General Campbell. Thanks for the question.
    So, you know, PIR, or priority intelligence requirement, I 
have several of those; that is not my only PIR. And so as we 
took a look at--and talking to President Ghani, as we kind of 
did a deep dive with all of the security agencies and the intel 
agencies inside of Afghanistan to look at what they were doing, 
I said I need to learn more about this, and one way to do that 
is to make it a PIR for my intel folks.
    So as we go through a number of things that we take a look 
at it, as we allocate resources from ISR platforms, other 
things, because it is a PIR it will get more--a better look at 
it and provide me more continued updates on that.
    And that is why I did that, because again, concern for 
President Ghani, concern for me. Could grow very rapidly. 
Again, at this state the term that has been out there is 
``nascent.'' It is a nascent organization.
    But again, as we talked about, it grew very quickly in Iraq 
and Syria. They have the potential to jump over different 
stages and build a network, and we want to make sure that we 
are looking at that very hard. So making it PIR just gives me a 
little bit better visibility on it.
    Mr. Bridenstine. Press reports in early February indicate 
that Mullah Abdul Rauf was killed in Afghanistan in a drone 
strike. The Washington Post called Rauf a figure actively 
recruiting for ISIS in Afghanistan, specifically Helmand, where 
coalition troops withdrew in October.
    Can you confirm these reports? This was in The Washington 
Post.
    General Campbell. Yes, sir. It has been in a lot of the 
media. Mullah Rauf Khadim was designated as a deputy emir of 
Daesh, or ISIL, inside of Afghanistan, the emir of what they 
call the Khorasan, which is Pakistan, Afghanistan, in that 
area. Was actually a TTP [Tehrik-e Taliban Pakistan] from 
Pakistan, so this was the guy that said, hey, I am the deputy 
emir, and----
    Mr. Bridenstine. I have got 1 minute left, so I have a few 
more questions about this, General----
    General Campbell. Answer is yes on----
    Mr. Bridenstine. Okay. Okay. You are aware.
    So when you think about Rauf, he was a Taliban commander. 
He was detained at GTMO [Guantanamo Bay Naval Facility], 
released. We turned him over to the Afghan detention facility 
where he escaped and he became a recruiter for ISIS. Are you 
aware of all this?
    General Campbell. Sir, I am aware he is from GTMO, that he 
was underneath Afghan control. I don't know any details on the 
escape at all.
    Mr. Bridenstine. As we look at the NDAA [National Defense 
Authorization Act] coming forward here, we have got to make 
decisions about GTMO in the NDAA. Does it concern you that our 
troops in Afghanistan are fighting the same enemy twice?
    General Campbell. Sir, it concerns me that they are 
fighting any enemy. If it is once or twice I would have the 
same concern, absolutely, but----
    Mr. Bridenstine. In your best military judgment, is closing 
GTMO at this time, knowing that 30 percent of the people are 
going back into the war, is that good or bad judgment?
    General Campbell. Sir, that is a policy question and I am a 
military guy. You know, I don't want to get drug into that 
policy.
    What I would tell you is I--what I want to make sure I have 
the ability to do is if people are going to come back into 
Afghanistan, that I have the ability to make sure I am 
comfortable with the assurances that Afghanistan, or whatever 
country makes when they release people and turn them over to 
another country, that I have the ability to make sure I 
understand what assurances we have that these people will not 
attack coalition forces again. So I want to make sure I am tied 
into that as we move forward.
    The Chairman. Thank the gentleman.
    Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask the general a couple of questions based on 
the popular opinion poll that he gave us here, and it was 
talking about Afghans expressing confidence in their new 
government.
    Do you have any sort of sense of how Afghans feel as far as 
confidence is concerned with Afghan capability post-U.S. or 
U.S.--post-U.S. drawdown?
    General Campbell. Sir, again, it is--you know, like 
anything else, I think they understand the capability that just 
having the coalition with them provides, and a lot of it is 
just giving them some confidence.
    You know, as I have taken a look on close air support--I 
give you that as an example that I get asked a lot of times, 
``I need close air support. I need close air support.''
    What I tell the Afghans is, ``Don't plan your operation 
wholly dependent upon close air support. You have the 
capability. The Taliban doesn't have close air support. The 
Taliban doesn't have up-armored Humvees. That Taliban doesn't 
have [122 millimeter] D-30 howitzers. The Taliban doesn't have, 
you know, the weapons that you have.''
    So a part of it is just leadership again, and then really 
having the confidence to take this fight to the enemy. But if 
you go out on the streets of Kabul and you engage with, you 
know, 85 percent or 80-plus percent of the people, they would 
tell you they are thankful for the coalition, that they want 
the coalition around.
    I think they are more comfortable if they have a coalition 
because it knows, you know, one, from helping out the security 
forces; it also provides them the opportunity to engage, have 
jobs, and that kind of thing. So I think they would tell you 
that they feel comfortable with the coalition presence.
    Mr. Veasey. Right. Exactly.
    Well, what about with a U.S. drawdown, how would that be 
perceived out in the terror community? Do you think the people 
in the terror community, whether it is the Taliban or even 
outside of the Taliban, outside of Afghanistan, you know, how 
do they view, you know, the Afghans' capability as far as being 
able to protect their own country?
    General Campbell. Sir, thanks. I think, you know, I would 
go back--if I can answer the last one a little bit more in 
detail.
    There was, I think, at different points in time a sense of 
abandonment if you talk to some Afghans. But for the most part 
the security forces, as they get the message out and show the 
people of Afghanistan what they are capable of, then I think 
that increases their confidence that the Afghan security forces 
can handle this. So there was early on, I think, some 
abandonment-type discussion going on. I have not seen that, 
quite frankly, in the last several months as the Afghan 
security forces continue to get better and better.
    I think on the terror community that you talked about, I 
think they were thinking that the coalition would be gone after 
2014 and that, you know, they would wait that out. I think with 
the BSA and the SOFA now signed they understand that for many, 
many years we will have a continued commitment by the 
international community to remain in Afghanistan both in some 
number, but also in the resources provided to Afghanistan.
    And again, I think that the time has come that they have 
got to become part of the political process. They have got to 
get back into--to being part of Afghanistan--they can't have 
Afghans killing Afghans, Muslims killing Muslims.
    And I think it is a sign of strength that President Ghani, 
on his first day of office, signed the BSA and the SOFA, and 
the message is sent to the terrorist community is, hey, you 
know, we thought it was going to go away and it is not.
    Mr. Veasey. Thank you.
    Thank you, Mr. Chairman. Yield back my time.
    The Chairman. Thank you.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    General, first of all, I want to commend you on your 
testimony, your years of service in combat, peace, the--can't 
even add up all the deployments you have been through, and I--
what I wanted to address is something that isn't here, and it 
is of concern to our NATO partners, maybe under the radar, and 
that is the situation of the poppy and the drugs and the 
corruption that, from a rational viewpoint, it affects Europe.
    How are we doing on--can you comment on the status of that 
and where it is going right now?
    General Campbell. Sir, thanks for the question.
    There have been a lot of different reports on the 
cultivation of poppies and what--the impact that it has 
financially for the insurgents in the area, a lot of that 
coming out of the Helmand area. Media reports will say that has 
increased over the last couple years as opposed to going down.
    Trade is a concern to President Ghani. He has talked about 
it. He is looking hard at a strategy on how he goes after that 
and deals with the people that produce it, that deals with the 
insurgents that use it for their gain.
    They have looked at different options down there. They do 
have quite a good record of a small task force that goes after 
and seizes different places and, for lack of a better term, 
drug labs that produce what comes out of there. But, you know, 
quite frankly, you know, it has not been enough and the 
strategy there has not taken that away from the insurgents.
    That is not part of my TAA or part of my CT mission, so I 
can't comment, you know, further on that piece of it. But 
bottom line, it does provide, you know fuel, financial 
assistance to the Taliban, and we have to take--and the 
government of Afghanistan is looking hard at a holistic look at 
how they can combat that.
    Mr. Cook. Thank you.
    The relationship with Pakistan obviously has improved quite 
a bit--the military. The equipment--at one time we were always 
concerned about the equipment backlog going through Pakistan 
and everything else. Are we in pretty good shape right now on 
that? We had containers backed up to the sky, and just a quick 
update on that or----
    General Campbell. Sir, thanks for the question. I mean, the 
logistical community and what our Nation has done with 
retrograde of equipment is phenomenal. I think, you know, years 
down the road when people take a look at this and understand--
fully understand the amount of equipment that came out and how 
it came out, this is--they will be--this is record-setting.
    And so we are on glide path now. We hit those back--all the 
numbers that we thought we needed to hit coming out of the 
mission to where we are today, we are on those numbers. So I 
feel very, very comfortable.
    It ebbs and flows on how we do that through Torkham, 
through down in the south, based on the relationship with 
Pakistan. But again, the relationship with Pakistan today in 
Afghanistan is the best I have seen it in all the times I have 
been over there, and a lot of that is because of General 
Raheel, chief of the army in Pakistan, and then President 
Ghani, and their relationship--how they come together.
    But the retrograde, I think, is on glide slope. I have no 
concerns there right now.
    Mr. Cook. Yes. I was very, very happy to hear that.
    I want to switch gears real quick. Uzbekistan in the north. 
Landlocked country, obviously. I think they have to have good 
relations with Pakistan. Iran is a whole new ballgame, as you 
know.
    What is the relationship with Uzbekistan right now? I know 
at one time they were working on that bridge or that--the--I 
think it was the train that was going down there. Is that still 
ongoing or----
    General Campbell. Sir, I haven't seen a final piece where 
they have signed an MOU, memorandum of understanding, or MOA, 
agreement. I know that President Ghani has personally reached 
out to all the countries in the region. He has visited many of 
them.
    I don't think in the last couple months that he has visited 
Uzbekistan, but I know he has talked to the senior leadership 
there. They have talked about the rail; they have talked about 
the bridges; they have talked about sharing of intelligence 
back and forth and how they can fight different insurgents.
    Really a lot in the north is around criminal activity as 
opposed to, you know, the insurgent piece. There is arms 
trafficking, there is drug trafficking, and those kind of 
things. So they are working together.
    He has sent senior members of his administration to 
different countries around--I couldn't--I can find out, but I 
know that I think several members of senior positions in 
Afghanistan have gone to visit Uzbekistan, as well.
    Mr. Cook. Thank you very much. Again, thank you for your 
service. I yield back.
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    General, thank you for being here today.
    At a time of sequestration, when we are cutting our funding 
for U.S. forces here in the U.S. and looking at everything from 
shutting down commissaries on bases to adjusting retirement 
benefits for our forces, we are looking at our future 
expenditures in Afghanistan. Now, I have concerns that we have 
sufficient oversight with how the Afghans are spending the 
money that we are providing them with the resource. And 
specifically, you had mentioned, you know, their lack of self-
sustaining capability, logistical capability.
    I would like to look specifically at their ability to 
account for personnel. We talked about already the over 20,000 
troop attrition in the Afghan forces that has been reported.
    You know, I rely on the Special Inspector Generals for 
Afghanistan Reconstruction's [SIGAR] reports as to what is 
going on there and I see that there have been some real 
concerns. I mean, the numbers of Afghan military and police 
forces fluctuate significantly, sometime from quarter to 
quarter by as much as 20,000 or 40,000 personnel.
    And I am worried that we are spending this money, we are 
not spending as much on our own U.S. forces here, we are 
spending money there, but, you know, those 40,000 troop 
fluctuations, are those best case scenario an accounting error? 
Those folks were never there, or they quit? Or were we paying 
for folks that were never there--ghost soldiers, as you were, 
that were on the books?
    So can you talk a little bit about how we are providing 
oversight for the Afghans and help to them to figure out how 
they can get a handle on their forces and how they are spending 
this money that we are providing?
    General Campbell. Yes, ma'am. Thank you for your service, 
as well.
    You know, that is always a very, very tough, complex thing 
to get your hands around. People in our own Army, as you know, 
we have a hard time sometimes figuring out exactly who is 
present for duty, who is not.
    Many of the figures I think you have seen in the last 
several days on numbers--you know, first off, we need to make 
sure that SIGAR and Members of Congress have total transparency 
on everything that we are doing inside of Afghanistan, and I 
want to make sure--and we are committed to provide SIGAR and, 
again, Congress everything they need to do that.
    Some of the things are classified, and I--and back in 
August timeframe--so this is not a new story, but back in 
August when I got there I asked that we take a holistic look at 
all the information that was going out to not only the SIGAR 
but to the press and everybody else, and I said, ``Anything 
that is readiness data''--and sometimes numbers of people and 
how you take a look at that could be construed as readiness 
data--but I said, ``Anything that is readiness data for the 
Afghans needs to be classified.'' We just can't put that out, 
for the Afghans' good and also because we are wholly dependent 
upon the Afghans now for our own force protection. It became 
more so that I needed to have the readiness data classified.
    The U.S. Army's readiness data is classified. All of our 
services' data is classified, as you know.
    So that decision was made in August. I reaffirmed with 
President Ghani--in fact, he approached me about having that 
kind of data classified. And again, here in the last probably 2 
weeks or so I went back to him and said, ``I want to make sure 
you are comfortable, because I am getting asked a lot of 
questions on this.''
    He was absolutely adamant that Afghan data that pertained 
to readiness data was classified. So I feel very comfortable 
where we are at.
    And I have not, as has been reported in some media, changed 
my mind. I have not. Readiness data remains classified.
    Now, on the numbers of people--and again, the last report 
that came out a couple days ago from SIGAR, I think what 
happened there--and there is--again, I want to make sure SIGAR 
has everything they need to do their job and Congress has that 
information, as well. But I think numbers reported and numbers 
where you get that information comes from many different 
sources, and there is a report, called the 1230 Report, that 
Congress has dictated that I give, and that is sort of the--
that is the base line, and that is where the numbers need to 
come from. And I think SIGAR understands that as well.
    But I think some of the reports you saw and where the 
discrepancy were were like quarterly reports, and they may not 
have even come from my headquarters but they came from maybe 
lower headquarters, where members of potentially SIGAR went 
down to a lower headquarters, said, ``Hey, what are your 
numbers?'' And so we have to do a much better job at my 
headquarters to make sure that we have processes in place that 
we can provide the right data at the right time, but we have to 
have a better procedure to do that.
    And we are working on that. I just signed a standard 
operating procedure to consolidate how we work that.
    We have over 50, probably 62 different audits going on 
inside of Afghanistan, from SIGAR to AAA [Army Audit Agency] to 
DODIG [Department of Defense Inspector General]--60-plus. And 
so as we have transitioned and brought our numbers down, I 
don't have the people in country to do all of that.
    I am dependent upon reach-back or other ways, and we have 
got to come up with a way to be able to figure out how we 
provide audit data, but at the same time continue to 
transition. And I don't have that capability. I have to raise 
that with my own leadership as we go forward.
    But the numbers that I think you saw the last couple days, 
I think there is a miscommunication. When I learned through The 
New York Times, not through SIGAR, that these numbers are going 
to be replaced, I contacted John Sopko with SIGAR and said, 
``Hey, we need to take a hard look at this data you are getting 
ready to release. I don't think it is right.''
    So I alerted him to that, they stopped the release of that 
piece. And again, we are looking hard at how we can continue to 
work making sure everybody gets the right data. Hopefully that 
got to your question.
    Ms. Duckworth. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General, thank you for being here.
    If there is one thing we have learned over the last several 
months it is that the people of a country have to be willing to 
hold that country, and I am speaking specifically of Iraq. 
Afghanistan obviously a very different country. I think that 
from the context of the American citizen that maybe the way it 
is talked about the perception is it is all one and the same 
issue, if you will.
    And I do think that we need to do a better job of getting 
that message out when we do have the victories, because all 
America is hearing right now is the bad that is happening in 
the Middle East. So thank you for your service.
    I want to talk with you about one of the issues that you 
have talked about a couple of times: close air support. 
Obviously, in order for Afghanistan to be a success they have 
to be able to hold that country from the Taliban and other 
terrorist organizations when we are hopefully completely out of 
there.
    The Afghanistan Air Force, the A-29 [Super Tucano] light 
air support mission right now is currently--they are being 
trained at Moody Air Force Base in Valdosta. If you could just 
speak to the--that element, how critical it is, the air support 
and Afghanistan's being able to carry out their own air support 
long term, and then how many A-29s do you expect we should be 
prepared to provide for the Afghanistan Air Force?
    General Campbell. Sir, thanks for the question. And again, 
we are very thankful in Georgia that they have that capability 
to provide the training for the A-29s. It is a very long 
process. You know, looking in hindsight, I wish we would have 
started that years ago and we would have that capability now, 
but we are where we are and I think what is happening there--
training the pilots, training the maintainers for this fixed-
wing close air support capability--is critical for Afghanistan 
and their air force as we move to the future.
    You know, quite frankly, we can't get it quick enough for 
them. The current program has about 20 aircraft over the next 3 
years that will come to Afghanistan.
    We won't have any for this fighting season 2015. We will 
get some at the end of the year, a couple more before start of 
fighting season 2016. But most will come out in 2017 and then 
in 2018. So that is another reason we need to continue to have 
this train, advise, and assist for the next several years, 
working at least on the air force piece.
    But it is a great, great capability. They are looking 
forward to it. And I think it will give them, and the people in 
that region will understand, that the Afghans have this great 
close air support capability.
    We are working other ways to work that here in the near 
term with forward-firing machine guns under Mi-17s, with MD-
530, this Little Bird I talked about. And again, they do have 
indirect-fire mortars, 120 mortars, D-30 howitzers that will 
continue to work with them on different ways to improve that 
capability. But this is a huge asset they are looking forward 
to getting inside of Afghanistan.
    Mr. Scott. You know, we have to make sure that when we 
leave that country that that country is prepared to hold and 
govern themselves. Just the situation in Iraq right now is--
that is certainly lessons learned the hard way, if you will.
    Mr. Chairman, I don't have any further questions.
    Thank you for the A-29 mention, and if we can ever host you 
at Moody Air Force Base, be happy to have you down there.
    With that, I yield the remainder of my time.
    The Chairman. Thank the gentleman.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, General, for your endurance and service.
    Tomorrow night at the state armory in Hartford there is 
going to be a sendoff for the Connecticut Army National Guard 
192nd Military Police Battalion, who are heading off to 
Afghanistan. And, you know, first of all, they were given 
notice almost 60 days ago to the day that they were being sent 
over. And I realize this is not sort of in your lane in terms 
of, you know, making the decisions about, you know, reaching 
into Guard and Reserve units.
    You know, what I would say is that, frankly, there are 
folks who are kind of scratching their heads that if we are at 
a force level of about 10,000, you know, Guard and Reserves--
there was, I think, an understanding and an acceptance back 
during the surge days, you know, when we had hundreds of 
thousands of people over in the Middle East--you know, tapping 
into the Guard at this point, and frankly, doing it with almost 
the bare notice required by law, is something that, again, 
folks are struggling with.
    And so first of all, I guess I would ask you--and I don't 
mean to put you on the spot, but if you were in front of those 
families tomorrow night, you know, what you would share with 
them. And I am not asking you to, you know, explain the 
decision-making process, because I realize that that happens 
somewhere else, in terms of your command.
    But again, as their leader over in Afghanistan, you know, 
what would be your thoughts that you would share with the 
families?
    General Campbell. Sir, thank you. And again, the Army--all 
of our service could not do what we do without our military 
families. So I would first thank them for their sacrifice, for 
having to allow us to have that soldier continue to serve.
    I would tell them that what they are getting ready to do, 
you know, two things--is a very, very important mission, will 
mean a great deal to the Afghan people but also provide for our 
own security back here.
    I would ask them to watch out for each other and always 
take care of brothers and sisters on their left and right to 
make sure that force protection is always foremost in their 
mind. I would ask them never to get complacent. But that they 
do have a very, very important job.
    You know, many times when I tell the soldiers, airmen, 
sailors, marines over there that sometimes you are too close to 
it; they can't see some of these changes we talked about 
earlier, and they--you know, people serve for different 
reasons, but they do serve because they know that they are 
serving for the greater good. And when they come to Afghanistan 
I tell them, you know, ``Whatever you do, make that place 
better than when you found it,'' and I think I have seen over 
the years everybody continues to do that.
    They will have an impact on whatever they do and whoever 
they touch. And again, sometimes this is an impact that they 
can't be able to put into words, but I would just tell you 
their service would be honored and that they will feel good 
about what they have done after they leave there.
    I can't speak to the service provider piece, that only 
that, you know, for many, many years our National Guard, our 
U.S. Army Reserve have played an important role both in Iraq 
and Afghanistan and will continue as we move forward. And so I 
appreciate their service.
    Mr. Courtney. Great. Well, thank you. And I will share 
those thoughts.
    You know, frankly, I think as we have sort of wrestled with 
the drawdown and force reduction and sequestration and the 
Budget Control Act, you know, it sort of has reignited a little 
bit of the sort of tension about whether or not the Guard and 
Reserve really are on parity, in terms of the rest of the 
forces. And again, the fact that they got this order to head 
over, you know, again, at a time when maybe the average person 
wouldn't think that kind of, you know, is consistent with the 
rest of the force level, underscores to me the value that 
Active Duty still apply--you know, believes exists, in terms of 
the Guard and Reserve units.
    And they have done yeoman's work during both conflicts in 
Iraq and Afghanistan. And, you know, they deserve all the kudos 
and appreciation that we can possibly give them.
    So again, thank you for your comments, and again, I will 
pass them along.
    I will yield back.
    The Chairman. Thank the gentleman.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you. And, General Campbell, 
thank you and your staff for being here today.
    And I am going to take a little different approach. I 
looked at your narrative and the comment by Senator Levin, who 
is now retired, and says, ``I just cite these public opinion 
polls--Americans, 65 or 70 percent think we haven't achieved 
anything.'' And then he is critical of the people that don't 
think we have achieved anything by saying at the end of it, 
``And the people who are 7,000 miles away think we haven't?''
    You know, well, I would say to the Senator, it is those 
people back home that are paying the bills. They need to get 
something out of the tax dollars that they are paying.
    When we went into Afghanistan in 2001 the debt of our 
Nation was $5.95 trillion. Today it is over $18 trillion in 
debt. And you know from your brothers and sisters in the 
military what we are faced with with budgets.
    All right. Then I read in a blog from yesterday by Jason 
Ditz--D-I-T-Z--between casualties and desertion, Afghan 
military is shrinking fast. ``The desertion problem is a 
longstanding one, with many Afghans signing up for the 
military, sticking around long enough to get their first 
paycheck, then bailing, and often taking their weapons with 
them as a sort of severance package.''
    Then in The Guardian yesterday, ``Afghan Officials Sanction 
Murder, Torture, Rape, Says Report.'' Now, I realize that this 
is from Human Rights Watch, and we can have our views on that, 
whether it is a liberal group or a conservative group or 
whatever. That is fair. But they still write this, and 
apparently there has been no dispute.
    And I will read just one paragraph: ``The report focuses on 
eight commanders and officials across Afghanistan, some of them 
counted among the country's most powerful men, and key allies 
for foreign troops. Some are accused of personally inflicting 
violence, others of having responsibility for militias or 
government forces that commit the crimes.''
    I know some good things are happening. I don't question 
that at all. But where--Afghanistan has been proving in history 
it is the Wild West.
    What my concern is that we have got 9 more years of a 
financial commitment and a military commitment, which might be 
limited in numbers but they are still young men and women over 
there walking the roads to be shot at and have their legs blown 
off. I just wondered, because we in Congress are going to be 
grappling with sequestration this year.
    The chairman and ranking member, who are doing a great job, 
are very concerned about the military budget, and I think all 
of us here are, as well. I know I am. I have Camp Lejeune down 
in my district and Cherry Point Marine Air Station.
    But I get to a point that I just wonder--not talking about 
you, sir; you are an outstanding, great military person--but 
will there ever be anyone in the diplomatic corps or the 
military that say, ``You know, we have done about all we can 
do?'' Some things are impossible.
    Yes, some people will benefit, but when I read reports like 
this, whether they be from the left or the right--Pat Buchanan 
is one of my biggest heroes. Ron Paul is one of my dearest 
friends. And I continue to see 9 more years of spending money 
that we don't have so we can decrease the number in our 
military.
    It doesn't make any sense. I know you don't make the policy 
decisions. I understand that.
    But will there ever be someone who follows behind you and 
follows behind me that will be honest to the Congress and the 
American people who have to pay the bill that we have done 
about as much as we can do?
    General Campbell. Sir, thanks for the question.
    Sir, I would answer like this: Again, you know, quite 
frankly, this is the world we live in, not maybe the world we 
want. And I think the complexity of the world we live in is a 
generational piece that is going to go on long after you and I 
are out of here, and we need to understand that and look at it 
as a generational issue and put strategies and policies in 
place that will get at this long-term.
    So it is not going to change overnight, and I think we just 
have to change our mindset on where we are at. And I think the 
American people are well served by the great men and women who 
continue to raise their right hand and serve, knowing that they 
can go into harm's way, knowing that despite trying to do 
something bigger than themselves, that they are going to face 
going into a service that is going to have budget issues that 
is going to take away.
    And so I think this is a long-term issue we have to get at.
    But what I am pleased about is that, you know, you 
mentioned all those different reports there, and there are 
challenges, not only in Afghanistan but many places in the 
world. I do see Afghanistan as a place, because of the 
significant investment in lives and in financial that we have 
provided to them, that this can be the bright spot, that this 
is, for lack of a better term, a strategic win that will carry 
on in this part of the world that is a very complex, dangerous 
part.
    And for very little continued investment, we can make this 
the shining light of Central Asia and that part of the world. 
And I think, you know, we have got to start someplace, and 
Afghanistan is the good news story among all these other bad 
things that are coming out.
    And for every bad news report you just mentioned there, 
sir, there are probably 9 or 10 good news that do not get out 
because, as you know, good news doesn't sell. What I have had 
to do is take--I give President Ghani a good news story 
storyboard that I collect each week.
    I have my commanders provide me a good news storyboard that 
talks about the good things that Afghans are doing in different 
areas, and when I meet with him I say, ``Mr. President, Dr. 
Abdullah, here are some good news stories. You are not hearing 
about it in the news but you need to know this is happening.''
    And I give them 10 or 15 PowerPoint slides with pictures 
showing good news story in Afghanistan, and that word just 
doesn't get out because it doesn't sell. But believe me, sir, 
for every VBIED [vehicle-borne improvised explosive device], 
suicide vest that went off in Kabul, there are 9 or 10 that are 
stopped.
    And so there is good news out there.
    The Chairman. Gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    General Campbell, thank you for your challenging leadership 
in Afghanistan.
    I want to quote the 2015 National Security Strategy in 
saying, ``We must recognize that a smart national security 
strategy does not rely solely on military power. Indeed, in the 
long term our efforts to work with other countries to counter 
the ideology and the root causes of violent extremists will be 
more important.''
    I strongly support this approach, General. However, I am 
also concerned that the persistence we have shown in 
Afghanistan and our presence there can have harmful effects on 
our long-term readiness.
    As we draw down to a force capable of protecting our 
security interests in the region, how will we capitalize and 
re-utilize the equipment--and I know this was brought up 
earlier--that we currently have in-country to protect the 
readiness of our total force? Specifically, can you comment on 
retrograde efforts, as they are supported in the fiscal year 
2016 budget, and what impact sequestration would have on this 
effort if sequestration is not repealed?
    General Campbell. Thank you, ma'am. And thank you for your 
visit last fall, as well.
    I haven't looked at the numbers for the retrograde portion 
for fiscal year 2016. I would tell you that we will continue to 
need the necessary resources, the financial piece to bring back 
the retrograde that we have in Afghanistan so that we can put 
that back into the force here. Probably 80 percent of that now 
is for the Army.
    But the very best equipment that we have is in Afghanistan, 
so we need to continue to make sure we get that back, get it 
reset, and get that into the force.
    I do think that we are on glide slope to do that. We had 
some concerns, you know, a year, year and a half ago, but as a 
vice then now as a commander on the ground, I don't have those 
same concerns and we will continue to get that back to the 
Army.
    Sequestration, from a different perspective, I think will 
impact the readiness of all of our services. And again, that is 
why I think all the service chiefs, the chairmen have come out, 
as you know, and said that it would have a really, really bad 
impact if we go to sequestration--on readiness.
    Ms. Bordallo. Thank you. Thank you very much, General.
    And my second question is, recently the first lady of 
Afghanistan had said, ``Women come to me and say you have 
forgotten us.'' I am a strong champion of women's rights and 
wonder, what can we do, working with the Afghans and NATO, to 
ensure women's rights are respected across the country as we 
continue to draw down our forces? How are we encouraging or 
working with the Afghan government to ensure greater inclusion 
of women in civic society?
    And a few years back I traveled with Speaker--then Speaker 
leader Pelosi, and we visited many of the women leaders in 
Afghanistan, and they were very, very concerned about the 
future. So can you comment on that, General?
    General Campbell. Thank you, ma'am. And we work very hard, 
both from a coalition perspective, but also President Ghani 
works very hard to make sure that he looks hard at how he is 
working on the gender issues, and particularly the women piece 
here, both from a military perspective, security perspective, 
and getting women into the police and getting them into the 
army.
    The money, $25 million, that Congress has approved for 
this, specifically pinpointed to work on these type of issues, 
is very, very helpful, and we are thankful of that support.
    But it will take time for the police and the army--and the 
police are doing much better than the army, quite frankly, on 
integrating women into the force. But we will look very hard as 
we go through there. But some of the cultural differences they 
have make that, you know, a little bit tougher.
    But I think they are both committed, from the MOI 
perspective, Ministry of Interior--and I will engage the 
minister of defense once we have new minister of defense. I 
have engaged the current acting and the chief of army on this, 
and they are always looking at ways on how they can improve.
    You know, I want to say 24 percent of parliament is women. 
You know, I don't think we have that in our own Congress, so 
that is very good in Afghanistan.
    So President Ghani and the first lady have really put a 
hard press on those throughout Afghanistan and reaching out, as 
well. I do have a gender advisor from my force, from Australia, 
actually, that focuses on a lot of different activities that 
are going on to see how we can do that much better. She engages 
with NATO and all of our NATO and partner forces, as well, to 
ensure we are doing everything we can to enrich this and 
continue to keep emphasis on it.
    Ms. Bordallo. Well, thank you very much, General, for your 
comments. And I yield back, Mr. Chairman.
    The Chairman. Thank the gentlelady.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    General Campbell, thank you so much for your service and 
taking on the mission that you are taking on. And it is 
encouraging to see the positive that we don't often hear about.
    I would agree with you wholeheartedly, I think it was a 
great move by Ghani to sign a BSA and the SOFA. That bodes well 
for all of us. And I think it was probably wise, from where I 
sit, for Ghani and Abdullah to come together as governance 
partners.
    And so my question to you is, what are you seeing as far as 
that relationship between the two of them and its effect on any 
national unity in Afghanistan?
    General Campbell. Sir, thanks. That is a great question.
    I look at this every day and I do think that both President 
Ghani and Dr. Abdullah gave up some to make sure that they can 
continue to have Afghanistan as a nation continue to move 
forward. They both did that after a long period there.
    As they work together and as I see both of them many times, 
both together and then separately, I think they complement each 
other as they work together. They both have great vision for 
where they want to take Afghanistan.
    And, you know, it is--it really is a people around each of 
them I think that they have to continue to work through, and 
they have run into instances where they have had differences, 
but I think they work hard to make sure as they come out to the 
public that they have one voice as they move forward. That is 
not easy all the time, but I think they understand how 
important it is so they work toward that, both from a security 
perspective and then from an economic perspective.
    But again, I think they complement each other and I am 
honored to have the opportunity to engage with both of them 
quite a few times every week.
    Dr. Wenstrup. So, General, in that sense, is that carried 
over to the military in some ways, as far as unity and cohesion 
amongst the military and the morale within the military--the 
Afghan forces?
    General Campbell. Sir, absolutely. As I said, he is--Dr. 
Ghani, President Ghani is a commander in chief. He said that up 
front. And so his interaction with all the security forces is 
completely different from where we were underneath President 
Karzai.
    Their morale, you know, just--it has gone way up just 
knowing that they have somebody that cares for their welfare, 
that has visited them at training sites, that has visited their 
wounded in hospitals, that has talked to them about changing 
the authorities for corps commanders on what they can and can't 
do.
    He has video teleconferences several times since I have 
been with him with the senior leadership. He has a National 
Security Council meeting every week that he brings in the 
senior leadership from the police and the army.
    So again, I think they are thankful that they do have a 
commander in chief that has taken not only their own welfare 
but also their families' welfare, as he looks at different ways 
to help out wounded warriors, those kind of things. So it is 
quite good.
    Dr. Wenstrup. And with that in mind, since they have not 
been in office very long, do you anticipate--you know, the 
question has come up a couple times about the deserters. Do you 
anticipate that that rate will slow down as a result, or 
hopefully, anyway?
    General Campbell. Sir, what they are--how would I try to 
make that tie-in, and I think, you know, President Ghani, what 
he is trying to do is put leadership in that can make a 
difference. So he is taking a hard look at all of his generals. 
He has retired on order of about 60 general officers since he 
has been--as the President.
    You know, they hadn't had any retirements in the last 4 or 
5 years underneath President Karzai. So in the last 4 months or 
so they had--they have had about 60-plus.
    So that is infusing new blood. He is looking hard at the 
people that he puts into those positions. You know, he is 
trying to interview every one of his general officers or the 
people that he promotes to be general officer. He is trying to 
put them based on their merit, you know, which is very good.
    And I think leadership is going to change the attrition 
piece. You know, what happens on the attrition, I said part of 
it is combat casualties. That is only a small piece.
    The desertion, if you take a hard look at why people 
desert--and they have instituted an attrition working group in 
the army that I have senior advisors that attend now. It went 
dormant for a while. We have instituted that back up to make 
sure we get after this issue.
    But when you take a hard look at it, it is leadership. It 
is, for instance, having a soldier that is assigned to the 
215th Corps in Helmand and he has been there for 4 years, so 
all he knows is combat after combat after combat. And they 
haven't been able to get on a cyclic, so they have sort of a 
red, amber, green, so they can go through and they can take 
leave, they can have training, and then they can fight.
    And so they are just now starting to have that cyclic force 
generation process that gives them that ability. And once they 
get that into place I really do think you will see the 
desertion piece go way down.
    Part of it is they are assigned to the 215th, you get down 
there, you see no future about being rotated to another corps 
and you are always going to be on it because their personnel 
management, how they do talent management is not right. They 
are moving toward that. If you are in the 215th down in Helmand 
but you live in Badakhshan, way up north, you know, it takes 
you days to get back there, or you may never get back there, 
and once you do get back there and you interact with your 
family and they are out in the fields trying to harvest, you 
know, you may go past what your 20 days of leave would be, and 
then you are considered a deserter, and then you don't want to 
come back, although many do.
    So I think leadership is going to make the difference on 
the attrition piece, and I think President Ghani is a big part 
of that.
    Dr. Wenstrup. Well, those sound like logical things to 
address.
    And if I may, Mr. Chairman, just one quick question.
    You did mention wounded warriors. What percentage of the 
medical care being given in theater right now is coming from 
American personnel, would you estimate, as opposed to----
    General Campbell. For the Afghans, sir?
    Dr. Wenstrup. For the whole theater. You talk about, you 
know, the wounded warriors. Is it U.S. physicians, surgeons 
taking care of the wounded predominantly, or is the Afghan 
medical----
    General Campbell. No, sir. You know, they have their own 
medical system. I have sat down with the Afghan army's surgeon 
general and talked to him on one occasion on how they can 
improve different areas of that, but no, they have regional 
hospitals.
    We have some advisors at different places that are 
continuing to work through that, but they only come to a 
coalition facility, like at Bagram, if it is a very, very, you 
know, worst case that they can't handle, and that has been on 
very few instances since I have been there.
    Dr. Wenstrup. Thank you very much, and----
    General Campbell. Thank you, sir.
    Dr. Wenstrup [continuing]. We will have a chance to meet 
with you again in a classified setting, and appreciate it.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you, General, for hanging in here. I have 
appreciated very much your knowledge and very nuanced 
testimony.
    I want to follow up on Congresswoman Bordallo's last 
comment. As a Member of Congress I have made six trips to 
Afghanistan, and four with a delegation of women--generally 
three Republican congressional--Congresswomen and three 
Democratic Congresswomen.
    And our goal really has been twofold. It has been over 
Mother's Day, so to thank our women soldiers. Often we 
commiserate with them, know how hard it is to be away from home 
on Mother's Day, as it is for all of those who are serving.
    But we have also had the real opportunity to see the gains 
that have been made for women in Afghanistan. And while they 
are not as widespread as we would like, I think Kabul has been 
a prime beneficiary of them, but--and other urban settings--but 
nevertheless, those gains have been real and your report showed 
that, in terms of health care, access to education, a whole--
access to work, although--however, limited.
    So as we are drawing down, our concern really is that those 
gains are not somehow traded away. And as you have talked about 
President Ghani's reaching out and referencing the Taliban in 
his inaugural speech, I can tell you that as we meet with women 
over there those comments send chills through them because we 
know how terribly they suffered under the Taliban regime.
    And so I think our concern, our bipartisan concern, has 
become, you know, how do we protect the gains that have been 
made? And as we have talked today about some of the differences 
about Afghanistan and Iraq, it seems to me that one of them has 
really been the signing of the bilateral security agreement, 
and that it has set up a very different framework and I think 
has given us leverage, a role in Afghanistan as it transitions 
to its next phase.
    So I am curious--while the security situation is really 
your role and many of these other gains have been investments 
that have come about through other parts of our presence 
there--how you see the United States' role using its ongoing 
relationship with the government to make sure that, let's just 
say negotiations do go forward with the Taliban, how we make 
sure, how we use our leverage there, how you use your leverage, 
representing the United States, to make sure that women's gains 
remain on the table and they are somehow not traded away as 
others argue for a path forward in which the Taliban are 
brought into the government?
    General Campbell. Ma'am, thank you for your visits. Thank 
you for your question.
    Again, I think leadership has a big deal here to play. I 
think, again, the difference here is that President Ghani and 
Dr. Abdullah are very committed to this. It is written in their 
constitution, and so as they work with the Taliban, if there is 
reconciliation down the road, I think one of the key parameters 
there will be is that the constitution will hold, and inside 
the constitution it talks about respect of women's rights.
    Again, I think with the first lady, with President Ghani, 
with Ambassador McKinley and his team at the embassy, with the 
30, 40-plus ambassadors I interact with periodically, they all 
have this upmost in their mind. It comes up in different 
settings, different meetings I am at.
    And so, you know, it is sort of a drum beat that President 
Ghani, Dr. Abdullah, senior leadership, and then the other 
ministries continue to hear, and they understand how important 
it is that they abide by, you know, their constitution and 
where they want to go.
    So I think leadership will make a difference, and I 
understand that in my realm, in the security realm, what we 
are--what we have changed now is everything is conditions-
based. And so we sign letters of commitment to provide finance, 
to provide fuel, on and on and on and on.
    And I think this is where the same ways we look forward in 
this area that it could be conditions-based, and everything 
that we continue to do through different NGOs we make 
conditions-based and they abide by their constitution, and I 
think the leadership can make that happen over there.
    Ms. Tsongas. I can remember a hearing we had here where a 
woman who is a leader of one of the NGOs over there said the 
first indication that things are not going well for women will 
be the street--if you stop seeing women on the street. So that 
really does come back to the role of the Afghan National 
Police.
    Are you confident that they are up to the task? And if not, 
do you see--how would we challenge them to do it better?
    General Campbell. Ma'am, the police have done much better 
on integrating women into their force. They are doing much 
better now on understanding how they have to deal with 
communities and understanding community policing.
    As we did a deep dive back in December on all the security 
incidents inside of Kabul, we talked about the high-profile 
attacks. One way of getting after that was having a police 
force that had community policing on their mind, understood 
what that meant.
    As was mentioned earlier by one of the members, President 
Ghani made a change on many of the district commanders inside 
of Kabul, made a change here. They have been talking about that 
for a while. He just did that. I think that will adjust.
    As I travel around the streets of Kabul the streets are 
bustling, a lot of women are out and around. And so that 
indication there says that continues to build.
    Again, I think this will be a challenge that they will--
that leadership, in keeping a spotlight on this and having the 
international community make sure they understand how important 
it is, and that if they don't continue to abide by this then 
there is a conditionality where they--you take away something, 
whether it is financial and--you know, they are very dependent 
upon the donor nations right now, so I think conditions have to 
go on this.
    And I know they are working very, very hard on this and 
they are dedicated toward that. But there will be challenges as 
they move forward.
    And, ma'am, it is going to take time. So, you know, as I 
talk about within their army they have a goal--a very hard goal 
of getting 10 percent into their army. They are less than 1 
percent today; they are trying to work toward that.
    But I look at my own Army, and after 239 years we are at 
about 15 percent, you know, so it is going to take time and it 
is harder based on the cultural differences they have there, 
but I think they are committed to working at this very hard.
    Ms. Tsongas. Thank you, General. Thank you for your 
testimony.
    The Chairman. General, I mentioned to you that I thought 
the questions would be better starting from the bottom, or the 
more junior members, and I think the questioning has been 
excellent today. I think we have touched on a lot of topics.
    You have had a number of questions about ISIS, or ISIL, and 
I realize that you are not here as a lawyer, and that you 
haven't read and studied carefully the implications of what the 
President has proposed. And I heard you say that at this point 
ISIS is a nascent threat, although--in Afghanistan, although 
one you are watching very carefully.
    But as we explore this AUMF that the President has 
requested for ISIS, thinking about how it would work for people 
like you, whether we are talking about Afghanistan, Syria, 
Iraq, or whatever, one of the concerns is that it has more 
restrictions on ISIS than the current AUMF has on Al Qaeda, and 
some of these groups live side by side.
    And so to me, there is just a commonsense concern here that 
if you have got two different standards to go after two 
different terrorist groups, how do you have the intelligence to 
know which is which? And then operationally, how do you have 
a--have to have a lawyer by your side to make every single 
decision?
    I mean, isn't that--if it comes to be that way--and I--this 
is a big if, and I am--again, I am not trying to put you on the 
spot either, but operationally would that not be a matter of 
concern?
    General Campbell. Sir, thanks for the question. And, you 
know, any commander on the ground would tell you he wants as 
much flexibility as he can get. And so any policy that provides 
commanders on the ground the flexibility to make decisions in a 
timely manner is something that I would--I will be in favor of.
    You are right though, sir, the insurgents--and I can only 
speak for Afghanistan, but the insurgents inside of 
Afghanistan, they in many cases feed off of each other, and 
they are interrelated in many different ways and you may have 
one that provides, you know, finance, food, lodging to one; one 
that may provide weapons, and secure routes for another. But 
some fight each other internally, but also it is very, very 
tough, as we take a hard look at it, to separate some of these 
organizations.
    What I do have right now is the authorities to prosecute 
those who come after the coalition, and that is how I take a 
look at it as I try to bend those, is that those that--not by 
their status, but by their conduct--come after coalition 
forces.
    The Chairman. The reason we are in Afghanistan to begin 
with is because that is the place from which a plot was 
launched that ultimately killed 3,000 Americans. And what can 
you tell us about your assessment of Al Qaeda's core ability to 
reconstitute itself were it not to be under constant pressure 
from us?
    General Campbell. Sir, thanks again for that question. I do 
think we have to make sure we understand the threat and how the 
threat will continue to evolve.
    The continued pressure that we provide now with our very 
credible CT capability, the very best in the world, I believe 
has prevented a--another attack on the homeland. And I do 
believe if you do not have pressure--continued pressure on AQ, 
that it would be a matter of time that they would regenerate 
that capability.
    The Chairman. Under the current drawdown plan, would your 
ability to gather intelligence for the CT mission be 
significantly downgraded in this calendar year?
    General Campbell. Sir, I--you know, as I look at it, I 
would much rather go into a classified session with you to 
discuss that piece----
    The Chairman. And I sure don't want to get into details.
    General Campbell. But, sir, as you know, as you go from a--
any time you go from one number to another, you have to make 
very, very tough decisions on where you balance that.
    And, you know, as I talked before, force protection is 
utmost in my mind. ISR and other pieces that provide--they do 
provide continued force protection for me, and so, you know, I 
look at it very hard and I have to balance that. And so those 
numbers--well, I am going to make some very tough decisions on 
where you take that, and then what I have to do if I don't feel 
comfortable with that, I need to make sure that I come forward 
to my senior leadership and provide them, you know, what I 
believe the risk to force is and what the risk to mission is.
    The Chairman. Yes. Well, and I appreciate that. Again, I am 
just thinking from a commonsense measure, if you are in fewer 
places around the country you have fewer opportunities to 
gather intelligence, include on force protection, as you 
mentioned, and on counterterrorism mission, as well, which is 
of concern to me.
    Just to clarify--and I think you answered this earlier--all 
of the high-value terrorists who were in our custody have now 
been turned over to Afghan custody, correct?
    General Campbell. Sir, not all Afghan. They have been 
turned over to some other third countries, as well. But I do 
not have any detainees. I do not have detention authority 
underneath my authorities after 1 January.
    The Chairman. Okay. So they have all gone somewhere, but 
not all necessarily to the Afghans.
    General Campbell. That is correct, sir.
    The Chairman. Okay.
    Last thought: I am struck. We had, as you know, General 
Austin here yesterday, and I am struck by the number of members 
on this committee on both sides of the aisle who have served in 
Iraq and Afghanistan and feel very strongly that they do not 
want the sacrifice that has been made in Afghanistan to--I hate 
to say go to waste, but there is tremendous frustration at what 
has happened in Iraq, and you got a sense of that today.
    I know from your service and from those who serve under 
you, you share that determination to make sure that, whether we 
are talking taxpayer dollars or American lives, that the 
sacrifice is upheld and honored and that it is not wasted 
because of policy decisions.
    The only thing I would request of you is, as you watch this 
situation in Afghanistan, probably closer than anybody else, if 
you believe that we are headed down the wrong path, i.e., 
headed down a path that we went down in Iraq, I know this 
committee expects and requests you to raise a flag to us as 
well as your chain of command and say, ``This is headed in the 
wrong path,'' because I--this committee obviously shares what I 
have no doubt is your commitment to make sure that all of that 
sacrifice these last 14 years results in a stable, relatively 
peaceful Afghanistan from which terrorists cannot again launch 
attacks against us.
    So I will appreciate that, sir. You are welcome to say 
anything you want, but you don't have to.
    General Campbell. Sir, absolutely. I am committed to that. 
That is what I owe my leadership and Congress here, to give you 
my best military advice as we move forward on that, and I am 
absolutely committed to that.
    And, sir, thank you for your leadership, as well.
    The Chairman. Great.
    Well, thank you, sir. I appreciate answering all our 
questions today.
    And with that, the hearing stands adjourned.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 4, 2015

=======================================================================



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 4, 2015

=======================================================================

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

   
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 4, 2015

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 4, 2015

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. In your testimony, you cited a recent approval for a 
$900 million procurement of HMMWVs and light and medium tactical 
vehicles that will replace aged-out and destroyed vehicles. With regard 
to Afghan National Security Forces (ANSF) vehicle replacement and 
sustainment decisions, has a reset and full fleet audit occurred to 
determine true ANSF vehicle inventory, condition and need for 
replacement versus refurbishment? If not, is an effort underway to 
implement a formal reset/audit program prior to new vehicle procurement 
and delivery across the Afghan National Army and Afghan National Police 
fleets?
    General Campbell. [The information referred to is for official use 
only and retained in the committee files.]
    Mr. Smith. In your testimony you discussed some of the inherent 
differences between how the Afghan National Army as a military entity 
and the Afghan National Police as a civilian entity function. As new 
Train, Advise, and Assist contracts are developed for critical Afghan 
National Security Forces support functions, such as vehicle 
maintenance, supply and fleet management, are these differing 
operational dynamics being considered to ensure proper training and 
management mechanisms are implemented to limit waste and corruption 
once control is handed over to the Afghans? Are current coalition 
contractors providing these services being engaged to gain insights 
regarding challenges, successes and lessons learned as new contracts 
and training programs are being developed?
    General Campbell. [The information referred to is for official use 
only and retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. General Campbell, how do you interpret the phrase 
``enduring ground operations,'' which are prohibited in the President's 
proposed Authorization for the Use of Military Force (AUMF)? Do you 
believe that phrase is clear?
    General, what in your opinion are the most important things we have 
learned during our operations in Afghanistan that can be put to use in 
the fight against the Islamic State of Iraq and the Levant (ISIL)?
    In reference to ISIL, you stated in January 2015, ``We are seeing 
reports of some recruiting. There have been some night letter drops, 
there have been reports of people trying to recruit both in Afghanistan 
and Pakistan.'' How serious do you perceive the threat to be in 
Afghanistan from ISIL?
    What limitations are presently in place under the 2001 and 2002 
AUMFs that you would hope to see changed with a new AUMF?
    General Campbell. [The information referred to is for official use 
only and retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. 2013 marked the first time since establishment of the 
Afghanistan Security Forces Fund that money has been explicitly 
authorized and appropriated for recruitment and retention of women in 
the Afghan National Security Forces. How will you work to ensure that 
money is directed to impact not only the number of women in the forces 
but also the institutional reforms needed to ensure the safety and 
security of these women?
    General Campbell. [The information referred to is for official use 
only and retained in the committee files.]
    Ms. Tsongas. In your view, what impact can more women serving in 
the Afghan National Security Forces have on the achievement of ongoing 
U.S. objectives in Afghanistan?
    General Campbell. Women make up 50 percent of the Afghan population 
and their contribution to the peace and security of Afghanistan is 
essential. A professional and sustainable ANDSF must include the equal 
opportunity for women to serve in the security forces in order to 
maximize the talent that exists within the Afghan population. Women are 
largely discriminated against and segregated in Afghan society and 
there is no better way to ensure their human rights than through 
enabling their participation and service in the Afghan security forces.
    Gender integration in all aspects of society is essential to 
societal change, economic growth and peace and stability. As Afghan 
women become more educated and it becomes more culturally acceptable 
for women to participate in the workforce, more opportunities will 
arise for women to secure their own future. Women are the largest 
untapped human resource in Afghanistan. Peace and security are more 
likely to be achieved if the government and security institutions 
incorporate and empower women and there is no better way of 
legitimizing this than through serving in the security institutions. 
The increasing number of women in the police has largely contributed to 
a greater number of gender based violence cases being reported due to 
the level of trust that women have in other women. The employment of 
women in the military also increases human intelligence capability and 
enables searches to be conducted of the homes of insurgents in which 
women reside.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Will Train, Advise, and Assist teams, Special 
Operation Command teams or other units be integrated into the Afghan 
National Security Forces structure below the corps level?
    General Campbell. [The information referred to is for official use 
only and retained in the committee files.]
    Mr. Coffman. Will Train, Advise, and Assist Teams or any other 
military element be integrated into Afghan National Security Forces 
combat operations at the tactical level?
    General Campbell. [The information referred to is for official use 
only and retained in the committee files.]
    Mr. Coffman. Does the Afghan National Security Forces have the 
proficiency, resources, and force structure to conduct close air 
support, conduct of fire, and other core combined arms capabilities? Do 
they require NATO support in order to conduct these types of missions 
and at what level?
    General Campbell. [The information referred to is classified and 
retained in the committee files.]

                                  [all]
</pre></body></html>
